Office of Inspector General
Semiannual Report to Congress




April 1, 1997 – September 30, 1997
                                            FOREWORD



It is my pleasure to submit the semiannual report on the activities of the Office of Inspector General
(OIG) for the period ended September 30, 1997. This semiannual report is being issued in
accordance with the provisions of the Inspector General Act of 1978, as amended.

OIG audits, investigations, inspections, and reviews identified over $157 million of actual and
potential monetary benefits and resulted in 36 convictions and 127 administrative actions during
the semiannual reporting period. OIG coordinated efforts with the Office of Acquisition and
Materiel Management, Veterans Health Administration (VHA) and the General Counsel to recover
$28 million resulting from contractor overcharges on VA contracts for drugs and medical
equipment.

While the OIG continues to provide the best possible coverage of VA programs and
activities within available resources, the continuing decline in appropriated dollars has
made it increasingly difficult to provide an acceptable level of oversight. Staffing levels for
the OIG are currently far below the statutory floor of 417. A VA request to Congress to
remove the statutory floor was not acted upon. Since the statutory floor remains, our
position is that the mandate should be complied with. My belief is that the statutory floor
was established as the minimum level needed to provide an acceptable level of oversight
over the second largest Department in the Federal government. Continued funding below
the statutory floor creates possible oversight vulnerabilities for Congress and the
Department.


WILLIAM T. MERRIMAN
Deputy Inspector General
                                                           TABLE OF CONTENTS

                                                                                                                                                                     Page

EXECUTIVE OVERVIEW .......................................................................................................................................              i

SUMMARY OF OIG OPERATIONS ......................................................................................................................                       v


I.     SIGNIFICANT OPERATIONAL ACTIVITIES
               Procurement Programs .........................................................................................................................         1-1
               Medical Care Programs........................................................................................................................          1-5
               Benefit Programs..................................................................................................................................    1-14
               Financial Management .........................................................................................................................        1-20
               Information Resources Management....................................................................................................                  1-23
               Employee Integrity and Other Issues ...................................................................................................               1-25

II.    OTHER SIGNIFICANT OIG ACTIVITIES
              Hotline ............................................................................................................................................    2-1
              Forensic Document Laboratory............................................................................................................                2-4
              Review and Impact of Legislation and Regulations.............................................................................                           2-5
              Hammer Award Recipient....................................................................................................................              2-6
              OIG Management Presentations...........................................................................................................                 2-6
              OIG Congressional Testimony.............................................................................................................                2-8
              Freedom of Information/Privacy Act/Other Disclosure Activities .......................................................                                  2-8
              Obtaining Required Information or Assistance....................................................................................                        2-9

III. FOLLOWUP ON OIG REPORTS
           OIG Role and Responsibility ...............................................................................................................                3-1
           Resolution of OIG Recommendations .................................................................................................                        3-1
           Summary of Unresolved and Resolved OIG Audits ............................................................................                                 3-2

IV.     VA AND OIG MISSION, ORGANIZATION AND RESOURCES...........................................................                                                     4-1

APPENDIX A -                          REVIEWS BY OIG STAFF

APPENDIX B -                          CONTRACT REVIEWS BY OTHER AGENCIES

APPENDIX C -                          EXTERNAL CONTRACT AUDIT REPORTS FOR WHICH A
                                      CONTRACTING OFFICER DECISION HAD NOT BEEN MADE FOR
                                      OVER 6 MONTHS AS OF SEPTEMBER 30, 1997

APPENDIX D -                          REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL
                                      EXECUTIVE OVERVIEW

This semiannual report highlights the activities and accomplishments of the Department of Veterans
Affairs (VA) Office of Inspector General (OIG) for the 6-month period ended September 30, 1997.
During this reporting period, 81 audit, review, and inspection reports were issued; 2 settlement
agreements were completed; and 115 investigations were closed. These initiatives identified actual and
potential recoveries of $30.9 million and made operational recommendations which could result in
better use of an estimated $126.5 million. In addition, as a deterrent to fraud, waste, and
mismanagement, our investigations and other reviews resulted in 62 indictments, 36 convictions, and
127 administrative actions against third parties, VA employees, and benefit recipients.

Our audits, reviews, inspections, and investigations this period focused on VA's major program areas, as summarized in the
following paragraphs.

                                   PROCUREMENT PROGRAMS
                                 VA recovered over $32 million during FY 1997, with $28 million
     Contractor Overcharges      recovered during the last 6 months, due to our identification of
                                 overcharges by Federal Supply Schedule (FSS) companies. In one
                                 case, an FSS contractor paid VA $22.1 million, the largest settlement
in VA’s history under the FSS program.

                                         We completed 17 preaward reviews of FSS proposals from
      Reviews of FSS Proposals           pharmaceutical companies, with costs questioned totaling $30.2
                                         million. These reviews assist VA contracting officers in negotiating
                                         the best possible prices for VA.

                              As the result of a joint investigation and contract review, a medical
     Procurement Fraud        corporation that provided health examination equipment to VA
                              acknowledged liability under the False Claims Act for submitting false and
                              fraudulent billings. A $3 million judgment was entered against the
corporation and the corporation agreed to permanent exclusion from Government contracting and
programs. A joint investigation with two other Federal agencies resulted in an ambulance company
owner being sentenced to over 5 years in prison and ordered to pay restitution of over $1 million for
submitting inflated billings for ambulance services provided.

                                   MEDICAL CARE PROGRAMS
                           We audited VHA’s initiative to implement mobile laboratory carts at
     Resource Utilization  selected VAMCs and found that over $10 million earmarked for the
                           initiative was used for other purposes or had been spent on equipment that
                           was never used. Our review of VA’s downsized inpatient substance abuse
treatment program concluded that VHA had established adequate housing and social support resources
for homeless veterans and other frequent users prior to the downsizing, but additional actions are
needed to ensure these users have access to inpatient and outpatient care when needed.




                                                            i
                                      Our audit of the fee-basis program concluded that VHA had established controls
        Fee Basis Program             to ensure payments for fee-basis treatment were appropriate, but additional
                                      actions were needed to reduce the rates paid and avoid duplicate or erroneous
                                      payments. In addition, $1.8 million could be reduced annually by establishing
benchmarks for fees and formal contracts with fee providers.

                                         Our assessment of VHA’s compliance with quality standards for
          Quality of Health Care         mammography services required by law concluded that VHA health care
                                         facilities are prepared to provide high quality services either in-house or
                                         through contract facilities. The review also concluded that actions were
needed to inform female patients of mammography service availability, increase mammography equipment use, and
establish quality assurance programs. Our oversight review of VAMCs’ implementation of External Peer Review
Program (EPRP) requirements concluded that VAMC’s used EPRP review results to develop better treatment methods,
with action recommended for increased use of EPRP review results to strengthen the program.

                                      Five of our healthcare inspection reports concluded that the VAMCs involved
      Patient Care Inspections        needed to take actions to improve patient care. In one case, our inspection agreed
                                      with a clinical peer review which concluded that providers should have ordered
                                      medical tests and more closely monitored a patient that died. In another case,
appropriate care was provided for a terminal patient, but an uninformed physician did not comply with the patient’s
request for heroic measurers and he died. In a third case, a patient’s scheduled operation was cancelled twice by a
surgeon without sufficient justification. In the other two cases, the alleged patient abuse or patient harm was not
substantiated, but programmatic changes were needed at one VAMC to improve the quality of care for their spinal cord
injury unit and another VAMC needed to improve its credentialing and privileging process.

                                         BENEFIT PROGRAMS
                                                 We reviewed four VBA areas: (1) compensation of VA beneficiaries
   Delivery of Benefits and Services             who are also active military reservists, (2) compensation and pension
                                                 (C&P) medical examination services, (3) appointment and supervision of
                                                 fiduciaries, and (4) Fiduciary Beneficiary System (FBS) data. We
estimated that active military reservists improperly received dual compensation payments of $21 million between fiscal
years 1993 and 1995, with future dual payments totaling $8 million if corrections are not made. Our followup review on
C&P medical examinations found that the rate of incomplete examinations had not changed significantly since FY 1993,
and VHA and VBA coordinated efforts were needed to monitor and reduce the rate. Our two reviews of VBA’s fiduciary
program concluded that appropriate fiduciaries are appointed, but both improved supervision of fiduciaries and
establishment of appropriate FBS records are needed to reduce the risk of theft or misuse of beneficiaries’ funds.




                                                           ii
                           Investigations disclosed cases of loan guaranty, fiduciary, and compensation fraud. The owner
    Program Fraud          of several real estate companies pleaded guilty to charges of conspiring to defraud VA and
                           HUD by acquiring and selling property by deceptive means and agreed to property forfeitures
                           valued at over $2.7 million. A county veterans’ service officer was sentenced to over 3 years in
prison and fined $10,000 for his involvement in schemes to defraud over 17 disabled veterans for whom he acted as
fiduciary. An individual and his spouse were sentenced to 10 years and 1 year, respectively, for a telemarketing scheme
disclosed by a joint investigation that also disclosed he was improperly collecting VA disability benefits with a 100
percent disability rating.

                                      FINANCIAL MANAGEMENT
                                                  We completed nine reviews as part of our audit of VA’s Consolidated
       Consolidated Financial Statements          Financial Statements (CFS), with VA management officials informed
                                                  of areas where actions are needed to improve accounting operations.
                                                  Another financial-related review identified duplicate payments totaling
over $1 million. None of the conditions identified had a material financial effect on the FY 1996 CFS.

                                  Our review of VHA’s procedures to verify self-reported veteran income for means tests
      Income Verification         found that over 87 percent of the cases reviewed did not have signed means test
                                  documents. In addition, VHA lost the opportunity to collect over $3 million because
                                  veterans were erroneously identified as exempt from co-payments.

                      INFORMATION RESOURCES MANAGEMENT
                                             Our review of VA’s use of Personal Identification Number (PIN) telephone
        Telephone Access Systems             access systems found that three VAMCs with PIN systems had reduced their
                                             long distance telephone costs by an average 68 percent, with total annual
                                             savings nearly $1 million. We concluded that telephone costs could be
reduced by over $10 million annually if all VAMCs installed PIN systems.

                                                             We evaluated security controls at a Benefits Delivery Center
        Security Controls Over Benefits Payments             that provides key automation support for payments to
                                                             veterans and their families, totaling $20 billion. We
                                                             identified a number of actions needed to make the facility
more physically secure and less vulnerable to unauthorized electronic access of data.




                                                            iii
                                        EMPLOYEE INTEGRITY
                                             Specialized Investigations Regional Task Force (SIRTF) investigations
       Specialized Investigations            disclosed instances of sales of controlled substances and workers’
                                             compensation fraud. One individual was sentenced to over 2 years in prison
                                             for the illegal sale of drugs. Four individuals had their workers’
compensation benefits terminated, with one ordered to make restitution of $260,000, and another sentenced to 4 months’
imprisonment. In all cases, the investigations disclosed that the individuals involved were working while receiving these
payments.

                                           Investigations disclosed drug theft or diversion, workers’ compensation fraud,
         Employee Misconduct               and other employee misconduct. Two licensed practical nurses at different
                                           VAMCs received 4 year and 5 year probation sentences, respectively, for drug
                                           theft and diversion. A VAMC claims clerk was sentenced to 6 months in prison
for workers’ compensation fraud after illegally receiving benefits in excess of $159,000. A former VAMC resident,
charged with making false statements on his application for a state university residency program, was able to dispense
controlled substances while at a VAMC and, after being arrested, fled to Zimbabwe. Zimbabwean officials subsequently
charged him with five counts of murder and two counts of attempted murder of patients at a mission hospital. He is
currently in the United States in Federal custody pending trial on charges of making false statements and for possession of
controlled substances. Other instances of employee misconduct resulted in the resignation and removal of VA employees.

                                  FOLLOWUP ON OIG REPORTS
                                As of September 30, 1997, the OIG did not have any unresolved internal audit reports.
     Unresolved Reports         A total of 21 external contract reports had been unresolved for over 6 months, with
                                questioned and unsupported costs totaling $33.5 million. Resolution of external contract
                                reports is pending contracting officers’ decisions, with the contracting officer the sole
decider in these cases.




                                                            iv
                                                  SUMMARY OF OIG OPERATIONS

                                                                                                                                     Current 6 Months        FY 1997
                                                                                                                                      4/1/97 - 9/30/97   10/1/96 - 9/30/97
                                                                                                                               (Dollars in Millions)
OIG Reviews Completed and Resolution Action
    Reports Issued.........................................................................................................................       81            181
    Settlement Agreements...........................................................................................................               2              4
    Value of Reports/Agreements
         Questioned Costs.............................................................................................................           $28.0          $35.2
         Unsupported Costs ..........................................................................................................              1.5            5.8
         Recommended Better Use of Funds ...............................................................................                         120.7          197.7
              Total ......................................................................................................................      $150.2         $238.7

    Reports Resolved (issued this and prior periods) ...................................................................                          34             79
    Value of Resolved Reports/Agreements
        Disallowed Costs. ............................................................................................................           $27.4          $37.5
        Funds to Be Put to Better Use.........................................................................................                    58.1          123.8
              Total ......................................................................................................................       $85.5         $161.3

    Unresolved Reports
        Over 6 Months as of 9/30/97:
              Internal Audit .........................................................................................................             0            N/A
              External Contract ...................................................................................................               21
        Less than 6 Months as of 9/30/97:
              Internal Audit .........................................................................................................             0
              External Contract ...................................................................................................               33
              Total ......................................................................................................................        54

    Value of Unresolved Reports:
        Questioned Costs.............................................................................................................            $ 4.5          N/A
        Unsupported Costs ..........................................................................................................               1.5
        Recommended Better Use of Funds ...............................................................................                          101.3
              Total ......................................................................................................................      $107.3

Investigation Activities
    Investigative Cases
        Opened.............................................................................................................................       88            229
        Closed ..............................................................................................................................    115            245
        Pending ............................................................................................................................     333            N/A

    Impact of Investigations
       Indictments ......................................................................................................................         62            107
       Convictions......................................................................................................................          36            110
       Probation (in years)..........................................................................................................            127            313
       Prison Sentences (in years)..............................................................................................                  33            131
       Fines, Penalties, Restitutions, and Civil Judgments........................................................                                $2.2           $3.7
       Investigative Recoveries and Savings..............................................................................                         $5.0          $13.9
       Administrative Sanctions.................................................................................................                  98            178




                                                                                               v
                                                                                                                                    Current 6 Months        FY 1997
                                                                                                                                     4/1/97 - 9/30/97   10/1/96 - 9/30/97
Audit Activities
   Reports Issued
      Internal Audits .................................................................................................................         13              32
      Other Reviews ................................................................................................................             9              16
             Total ......................................................................................................................       22              48

   Audit Workload
      Carry-Over Projects Completed ......................................................................................                      18              34
      Planned Projects Initiated ................................................................................................               12              25
      New Projects Received....................................................................................................                 11              16
            Total ......................................................................................................................        41              75

Contract Review Activities
   Reports Issued/Settlement Agreements
      Contract Reviews by OIG Staff
             FSS Contracts.........................................................................................................             28              37
             PL 102-585 Reviews .............................................................................................                    1               4
             Other ......................................................................................................................        3               5
      Contract Reviews by Other Agencies .............................................................................                          11              46
             Total ......................................................................................................................       43              92

Hotline and Special Inquiry Activities
   Hotline Cases
       Opened.............................................................................................................................     376             733
       Closed ..............................................................................................................................   313             624
       Percent of Founded Allegations.......................................................................................                    24%             23%

   Impact of Hotline Activities
      Administrative Sanctions.................................................................................................                 29              57

   Special Inquiries Completed
       Reports Issued..................................................................................................................          8              28
       Administrative Closures ..................................................................................................               12              25
             Total ......................................................................................................................       20              53

   Special Inquiries Workload
       Carry-Over Projects.........................................................................................................             25              41
       New Projects Received....................................................................................................                36              56
             Total ......................................................................................................................       61              97

Healthcare Inspection Activities
   Projects Completed
       Inspection Reports Issued................................................................................................                10              17
       QA/Patient Care Reviews................................................................................................                  30              52
       Clinical Consultations/Technical Support. .....................................................................                          69             130
             Total ......................................................................................................................      109             199

   Projects Pending
       QA/Patient Care Reviews................................................................................................                  51             N/A
       MI Case Evaluations........................................................................................................               0
       Clinical Consultations/Technical Support.......................................................................                          26
             Total ......................................................................................................................       77




                                                                                                    vi
                      I. SIGNIFICANT OPERATIONAL ACTIVITIES

                               PROCUREMENT PROGRAMS

1. CONTRACTOR OVERCHARGES


Issue: Contractor Overcharges for Medical Equipment, Medical Supplies, and Drugs

Conclusion: Contract reviews identified contractor overcharges.

Impact: VA recovery of over $32 million from Federal Supply Schedule (FSS) contractors, with
$28 million recovered this 6-month period.


Postaward Reviews of FSS Contracts

Contract review efforts during FY 1997 resulted in the recovery of over $32 million from companies
selling medical equipment, medical supplies, and drugs to VA and to other Government agencies. This
compares favorably to FY 1996 recoveries of approximately $28 million. These recoveries from
contractors represent the collective efforts of the Office of Acquisition and Materiel Management, the
Office of General Counsel, Veterans Health Administration, and OIG working together, as a team, to
produce these results. Some examples of these recoveries follow.

•   An FSS contractor for medical imaging equipment paid $22.8 million to the Government (VA
    received $22,116,000 of the $22.8 million) to settle allegations that they had failed to provide
    accurate, complete, and current discount and pricing information to the VA contracting officer
    during contract negotiations for a 5-year, $94 million contract, and had failed to pass on certain
    price reductions to VA and other FSS users. The company initially had offered a $3.7 million
    refund associated with their voluntary disclosure involving nondisclosed price reductions and
    interest. The settlement, the largest in VA’s history under the FSS program, was reached through
    the combined efforts of the OIG, National Acquisition Center personnel and Department of Justice
    attorneys.

•   A pharmaceutical company agreed to pay $2.5 million to VA for FSS contract overcharges resulting
    from violations of the provisions contained in the price reductions and defective pricing clauses.
    The company had voluntarily disclosed contract overcharges computed to be $1.1 million and
    attributed all of the overcharges to price reduction violations. We found errors in the computation
    of price reductions and also identified defective pricing violations that resulted in the significant
    increase to the amount due.

•   A medical equipment company agreed to pay $656,316 to VA for FSS contract overcharges
    resulting from violations of the provisions contained in the contract’s defective pricing clause.
    Initially, the company voluntarily disclosed contract overcharges that were attributed to undisclosed
    price reductions, but did not compute an amount due. After reviewing the contracts, we determined
    that there was a strong possibility that the pricing violations were related to defective pricing. The
                                                                                                  1-1
    company subsequently used a CPA firm to analyze the data and concluded that the contracts were
    priced defectively, with a pricing violation of $656,316. We reviewed the workpapers and
    supporting documentation and concluded the amount of overcharges was represented fairly.

•   A medical supply company that provides VA with in vitro diagnostics, reagents, test kits and sets
    voluntarily disclosed that they owed the Government $425,771 because of price reduction violations
    in administering their FSS contract. Our review concluded that the company owed the Government
    a total of $497,089 due to price reduction violations, $71,318 more than the company had
    disclosed. They agreed with our calculation and remitted $497,089 to VA.

•   VA recovered $908,166 from another FSS contractor that supplies VA with in vitro diagnostics,
    reagents, test kits and sets, based on a voluntary disclosure attributed to undisclosed price
    reductions and refund made of $854,513. Our review ruled out any pricing violations due to
    defective pricing, but identified an additional $53,653 associated with price reductions. The
    contractor agreed with our calculation and remitted the additional amount to VA.

•   Two pharmaceutical companies acknowledged errors in calculating Federal Ceiling Prices under
    Public Law 102-585, and agreed to pay a total of $327,763 to VA for contract overcharges. The
    companies also agreed to implement policies and procedures that would incorporate the necessary
    internal controls to correct the errors.

•   A joint review, conducted by VA OIG Investigations and Contract Review staff and the FBI,
    resulted in a consent judgment for $3 million against a former FSS vendor of medical supplies and
    its employee owners. The review uncovered evidence that the FSS vendor had engaged in a
    systemic pattern of mischarging VA hospitals and other government agencies for medical supplies
    by submitting invoices for payment to the government that reflected inflated prices and did give not
    the government its negotiated discount under the contract. The joint review revealed that the
    government was overbilled $1,083,041 on two FSS contracts during the period 1989 to July 1994,
    when the second contract was terminated. The $3 million judgment was made pursuant to the treble
    damages provisions of the False Claims Act, which entitles the government to recover three times its
    losses.

•   Based on a Defense Contract Audit Agency postaward audit and an OIG supplemental postaward
    review of an FSS contract, a medical equipment company remitted $459,396 to VA in settlement of
    contract overcharges due to defective pricing and undisclosed price reductions.

Preaward Reviews of Pharmaceutical Offers

VA’s FSS pharmaceutical schedule, with FY 1996 sales of $1.3 billion, represents the largest dollar
value, by far, of the 13 Federal Supply Schedules awarded and managed by VA’s National Acquisition
Center (NAC). During the period, our Contract Review Division auditors, in collaboration with NAC
Pharmaceutical Service contracting officers, initiated a major project to conduct 46 preaward reviews of
FSS offers from pharmaceutical companies. Due to the significant number of reviews and short time
frame allowed for their completion (approximately 3 1/2 months), these auditors were assisted by ten
auditors from our Office of Audit. Of the 46 preaward reviews planned, 17 were completed during the
period ending September 30, 1997, and are listed in Appendix A. The other 29 are in process, with
completion planned during the next period. These preaward reviews assist VA contracting officers in

1-2
negotiating best possible prices by determining if an offeror’s (i) commercial pricing and sales data
disclosed in the offer are accurate, complete, and current, and (ii) proposed FSS prices/discounts are
equal to or better than those offered to its most favored customers.

The reviews also identify customer classes (e.g., group purchasing organizations) that Government
agencies can use to track price reductions during the life of an FSS contract. Additionally, these
reviews identify and comment on pricing concessions, e.g. rebates that pharmaceutical manufacturers
offer their commercial customers. When requested, our auditors provide assistance to contracting
officers during negotiations with companies.

2. PROCUREMENT FRAUD


Issue: Integrity of VA’s Procurement Program

Conclusion: Investigations disclosed third party fraud in VA’s procurement program.

Impact: Individuals and companies were either indicted, convicted, or sentenced.

•   Following a joint investigation by the VA and Department of Health and Human Services (HHS)
    OIGs and the Postal Inspection Service, the owner and president of an ambulance company pleaded
    guilty to four counts of mail fraud, and was subsequently sentenced to 63 months’ in prison, over $1
    million in restitution, and three years’ probation. The guilty plea was the result of a 20-count
    indictment, which charged that the ambulance service owner contrived a scheme to systemically
    defraud VA and other Government agencies by submitting false claims for payment utilizing the
    U.S. mail. He generated false billings by inflating billings for transporting patients by his ambulance
    company. Loss to the Government exceeded $2 million.

•   As described in the prior section on postaward reviews of FSS contracts, a $3 million consent
    judgment was entered against a medical supply corporation and its three employee owners. The
    individuals acknowledged liability under the False Claims Act for submission of false and fraudulent
    billings on Government contracts. The corporation and one of the individuals voluntarily agreed to
    permanent exclusion from Government contracting and programs, including Medicare and
    Medicaid. Judgment was entered against a second individual in the amount of $40,000; this
    individual agreed voluntarily to exclusion from Government contracting and programs for a period
    of 5 years. The third individual agreed voluntarily to exclusion from Government contracting and
    programs for a period of 3 years.

•   The former owner/operator of a company that provided hand tools, machine tools and hardware to
    VAMCs was extradited from a prison in Rome on behalf of VA and the Department of Defense
    (DoD), and placed in the custody of a state Division of Criminal Justice to face outstanding charges.
    The individual was subsequently placed in the custody of VA and DoD OIG special agents to appear
    in court on an outstanding 19-count indictment charging the individual with bribery and conspiracy
    to defraud the United States. An earlier joint VA and DoD OIG investigation revealed that, over a
    4-year period, the individual conspired to pay bribes to VA officials to influence the awarding of 190
    Government contracts for supplies and services valued at approximately $132,000.


                                                                                                   1-3
•   The owner of a medical equipment business that had a contract with a VAMC pleaded guilty to a
    one-count criminal information charging him with making false claims to VA. The information
    stated that the individual billed VA for the purchase and delivery of new medical equipment and
    beds for disabled and sick veterans when, in fact, the equipment provided was not new nor what the
    contract specified. Sentencing is pending.

•   The owner of a distribution company signed a consent judgment for $5,000 to settle charges that the
    company violated the Buy American Act and Trade Agreements Act of 1979. An investigation
    disclosed that although the company certified its products were produced in the United States, the
    latex examination gloves it provided to VA were produced in Malaysia, a non-designated country
    which was not an authorized source for this procurement.




1-4
                               MEDICAL CARE PROGRAMS

1. RESOURCE UTILIZATION


Issue: Pathology and Laboratory Medicine Service (PLMS) Mobile Laboratory (Mobile Lab)
Initiative

Conclusion: Resources for mobile laboratories were not used as intended.

Impact: Reassignment of $5.2 million in unused equipment to other facilities.

Mobile Lab is a cart with eight testing instruments which can be moved throughout a hospital to
perform the 25 most commonly ordered lab tests. It was developed and implemented at selected
VAMCs in FY 1994 at a cost of $20.7 million. We conducted an audit of the Mobile Lab initiative to
determine whether Mobile Lab implementation was performed in a cost-effective manner that ensured
optimal utilization of funding and equipment.

Our review found that the Mobile Lab was not widely used because the instrument configuration on the
cart was selected without consideration of the specific needs of individual laboratory operations and
VAMCs had difficulty determining the best use for Mobile Lab. As a result, over $5 million was spent
on equipment that was never used, and another $5 million provided for the Mobile Lab initiative was
spent for other uses. We recommended that VHA reassign the unused equipment to facilities or
activities that can utilize it. The Under Secretary concurred with the findings and established a task
force to review all viable options to reassign the unused equipment. (Pathology and Laboratory
Medicine Service (PLMS) Mobile Laboratory Initiative)

Issue: Downsizing VA’s Inpatient Substance Abuse Treatment Program (SATP)

Conclusion: VHA managers and SATP officials successfully identified and established adequate
resources to ensure that all patients continued to have secure living arrangements as they moved
from inpatient status to outpatient status.

Impact: Assurance of continuity of services for fragile patients.

A rapidly evolving health care environment in which it is essential to provide high quality health care to
more patients, with fewer resources, led the VA to reduce large numbers of beds (2,409 in FY 1995,
and 2,255 during the first two quarters of FY 1996) and to increase its emphasis on the use of
ambulatory care to treat many disorders, including substance abuse treatment. All VHA Networks
drastically reduced the numbers of inpatient beds devoted to treating SAT patients, and substantially
increased the capacity to treat these patients on an ambulatory care basis. This transition required VA
clinicians to ensure that SAT patients have available the social and clinical support services they need to
be successful in rehabilitation.




                                                                                                   1-5
We conducted a program evaluation to assess the impact that decreasing the number of inpatient
SATPS has had on access for homeless veterans and other frequent users and to determine whether
VHA providers had identified and established adequate housing and social support resources before the
downsizing began. We found that VHA managers and clinicians worked successfully to identify
alternative living situations for SAT patients to ensure that they would have secure shelter during their
treatment process, and that clinicians had continued to work with community resources to provide the
necessary assistance to these patients. The evaluation also concluded that the following additional VHA
actions would strengthen and improve the quality of, and access to, VHA’s SATPs: (i) require each
VISN to have a core of inpatient beds to accommodate mentally and physically impaired patients and
those who experience acute relapses; (ii) require discussion and documentation of transportation needs
to ensure that patients who do not have adequate resources have transportation to the treatment site;
and (iii) develop accurate methods for reporting the number of patients who access SATP care in order
to ensure the commitment of adequate resources to the treatment process at any given time.

The Under Secretary for Health concurred in our recommendations and implemented or planned
appropriate actions to strengthen the ambulatory care SAT process. (The Impact of Downsizing
Inpatient Substance Abuse Rehabilitation Programs on Homeless Veterans and Other Frequent Users)

2. VA’S FEE-BASIS PROGRAM


Issue: VHA Internal Controls Over the Fee-Basis Program

Conclusion: VHA can strengthen the fee-basis program by establishing additional management
controls.

Impact: Expenditures could be reduced by at least $1.8 million annually.

Fee-basis treatment is inpatient care, outpatient care, or home health care received from non-VA health
care providers at VA expense. During the period April 1, 1994 through March 31, 1995, VHA paid
$237 million for fee-basis treatments provided to eligible beneficiaries, including $112 million for
outpatient care, $94 million for inpatient care, and $31 million for home health care.

We conducted an audit to determine if VHA had established effective internal controls to ensure that
payments for fee-basis treatment were appropriate. Overall, VHA internal controls provided reasonable
assurance that payments for fee-basis services were appropriate. However, management controls could
be improved by implementing procedures to avoid duplicate payments; notifying veterans when VA
pays for fee-basis medical care; and improving procedures to prevent payments for services for
decreased veterans. In addition, VHA could reduce fee-basis home health care expenditures by at least
$1.8 million annually by establishing formal contracts with fee providers and benchmarks for
determining reasonable rates. The Under Secretary for Health concurred with our findings and
recommendations and provided acceptable implementations plans. (Internal Controls over the Fee-
Basis Program)




1-6
3. QUALITY OF HEALTH CARE PROGRAM EVALUATIONS


Issue: Mammography Services for Women Veterans

Conclusion: VHA has properly and successfully pursued actions to ensure that eligible woman
veterans have consistently high quality mammography services available through its health care
facilities.

Impact: Assurance of high quality health care.

In July 1995, the Under Secretary for Health issued a VHA directive requiring VA health care facilities
to achieve substantial compliance with the Mammography Quality Standards Act of 1992, which
established standards for mammography equipment, personnel, and practices, including quality
assurance assessment. The objective of this directive was to ensure that women veterans have access to
an equal quality of diagnostic services for detecting breast cancer as that which is available for women
in the private sector.

We conducted a program evaluation to assess VHA facilities’ compliance with the VHA directive. We
concluded that VHA health care facilities are prepared to offer high quality mammography services to
women patients, either with in-house facilities, or by means of contracting with private or academic
health care facilities. Clinicians, however, do not always ask female patients if they wish to have a
mammography, and do not always record in the medical record that they discussed this issue with the
patient. Some medical centers that own mammography equipment have not as yet achieved the level of
workload necessary to maintain employee expertise in its use (300 mammograms) and managers need to
explore ways to increase the workload. Although clinicians recognized the importance of maintaining
quality oversight of their mammography products, not all medical centers had developed quality
assurance measures to systematically record outcome reviews, including the disposition of positive
mammograms and surgical tissue correlation with radiological interpretations.

We made recommendations to address these three areas. The Under Secretary for Health concurred
with the recommendations and implemented or planned appropriate actions to strengthen
mammography procedures. (Assessment of the Veterans Health Administration’s Status in Providing
Mammography Examinations)

Issue: Private Sector Contracted Review of VA Treatment Quality

Conclusion: VAMCs have substantially implemented External Peer Review Program (EPRP)
requirements, but additional actions are needed to strengthen the program.

Impact: Improvements to the EPRP.

In FY 1992, VHA replaced its 6-year-old Medical District Initiated Peer Review Organization with a
private sector contract to obtain expert evaluation of the quality of health care provided in its 173
hospitals. VHA managers intended to use EPRP review results to assess the quality of veterans’ care,


                                                                                                1-7
and to pursue system-wide opportunities for improvement in the quality of care using retrospective
medical record review.

We conducted a program evaluation to determine the process used to implement the EPRP and to
assess EPRP information utilization at the VAMC level. We found that medical center managers
generally communicated EPRP findings to the responsible practitioners and used EPRP findings to
develop better treatment methods. We recommended actions to strengthen the program: contractor
reporting of the magnitude of cases that do not fully comport with review criteria, contractor trending
of EPRP review results by VAMC, and incorporation of EPRP review results into the respective
VAMC quality management programs.

The Under Secretary for Health concurred with the recommendations and implemented necessary
actions to strengthen the utility of the EPRP for using facilities. [Note: Subsequent to issuance of our
report, VHA reported that the EPRP has been restructured, with a shift in focus from case-by-case
assessment to a broad systems approach that emphasizes objective assessment of national VHA
performance measures.] (Oversight Review of the Veterans Health Administration’s External Peer
Review Program)

Issue: Nationwide Quality Program Assistance (QPA) Reviews

Conclusion: VAMC top managers were individually and collectively involved in several actions
that were focused on ensuring that eligible veterans have access to high quality, low cost health
care.

Impact: Advisory report to VAMC Management.

We conducted a QPA review at VAMC Manchester, NH as part of our QPA development process. The
QPA process is intended to add value to other external review activities that oversee VHA facilities.
Review instruments assess the extent to which a VAMC meets VHA’s four performance goals: cost-
efficient care, high-quality care, improved patient access to care, and improved patient satisfaction.

We concluded that the VAMC’s top managers were individually and collectively involved in several
actions that were focused on ensuring that eligible veterans have access to high quality, low cost health
care. Mid-level managers and operating employees expressed concern over the fast pace with which
changes in the health care process and facility reorganization were being made, but they were aware of
and supported management’s treatment goals. Patients indicated that they were generally pleased with
the care they received. (Quality Program Assistance Review, Department of Veterans Affairs Medical
Center Manchester, NH)




1-8
4. INSPECTIONS OF INDIVIDUAL CASES OF PATIENT CARE


Issue: Alleged Inadequate or Inattentive Care of Two Patients

Conclusion: Clinicians had provided appropriate care to one patient, but had not been
sufficiently aggressive in recognizing and following up on the other’s medical needs.

Impact: Improved procedures to prevent recurrence.

We reviewed allegations that medical center clinicians did not provide attentive care for a Nursing
Home Care Unit (NHCU) patient’s respiratory distress, causing him to have unnecessary difficulty
breathing, and that physicians did not properly respond to a psychiatry patient’s lethargic condition,
resulting in his ultimate death.

We concluded that clinicians had reacted properly and adequately treated the NHCU patient’s
respiratory condition. A clinician peer review had been conducted to determine whether the psychiatry
patient’s care had been appropriate. The review concluded that medical and psychiatric care providers
should have ordered neurological and laboratory tests and been more aggressive in monitoring the
patient’s condition. We agreed with these conclusions and found that medical center managers had
initiated appropriate corrective actions to ensure similar instances would not reoccur. They had not,
however, discussed the facts of the psychiatry patient’s care with their Regional Counsel office to
determine the propriety of advising the patient’s family of their prerogative to pursue VA benefits or file
a tort claim, and we recommended that they do so. The Director agreed to obtain Regional Counsel
advice. (Inspection of Alleged Inadequate Care and Nursing Incompetence on the NHCU, Department
of Veterans Affairs Medical Center Bronx, NY)

Issue: Alleged Poor Care and Disregard for a Patient’s Advance Directive

Conclusion: Clinicians provided the patient with appropriate treatment for a terminal
condition, but an uninformed clinician did not comply with the patient’s wishes for end-of-life
care.

Impact: Re-emphasis on compliance with advance directive policy to prevent recurrence.

We reviewed allegations that clinicians did not provide proper care for a patient who had a terminal
heart condition and failed to comply with both the patient’s and spouse’s wishes that all necessary
measures be pursued to keep the patient alive.

We found that clinicians had energetically and conscientiously sought to treat the patient’s terminal
heart condition even though they were fully aware that treatment could not improve the patient’s
condition or extend his life. Clinicians took great pains to keep both the patient and his spouse
informed of his treatment progress and his ultimately poor prognosis, but both individuals wanted
clinicians to exert heroic efforts when the patient needed resuscitation. Unfortunately, the patient’s
condition rapidly deteriorated during a tour of duty when the physician on duty was not familiar with his
case or the family’s desires for heroic measures. Using his clinical judgment, and based on the patient’s

                                                                                                   1-9
clinical presentation, the physician on duty did not carry through with extensive resuscitative measures
and the patient died.

We recommended that the VAMC Director take action to review the resuscitation and advance
directives policies with medical center physicians and nursing employees in order to clarify the need to
honor patients’ requests, and adhere to established policies. We also recommended that local clinicians
refer similar cases to the medical center’s Ethics Committee for clarification and discussion of the most
appropriate way to manage similar end-of-life wishes of future patients.

The Medical Center Director concurred with our recommendations and provided action plans that
should improve the treatment process. Medical center managers also offered numerous referrals within
the community to assist the patient’s spouse in working through her grieving process. (Inspection of
Alleged Poor Quality of Care and Disregard of Patient’s Advance Directive for Life-Saving Measures
at the Department of Veterans Affairs Puget Sound Health Care System, Seattle, WA)

Issue: Alleged Inadequate Spinal Cord Injury Unit (SCIU) Clinical and Management Practices

Conclusion: Medical center managers needed to focus on and define the SCIU’s mission in order
to ensure more consistent patient care for patients with chronic spinal cord injuries.

Impact: Reassessment of SCIU mission and staffing to better focus on patient needs.

In response to a VHA request, we conducted an independent inspection to further evaluate earlier VHA
reviews that were conducted to review allegations of alleged patient abuse, instances of improper
relationships between SCI patients and SCIU clinicians, and unprofessional activities among some
clinical employees. We conducted the inspection in collaboration with VHA’s Office of Medical
Inspector, and convened a panel of nationally recognized SCI treatment experts in order to fully
evaluate all aspects of this highly specialized treatment program. The panel developed independent
findings and recommendations which we agreed with and which supported our findings.

We were unable to substantiate any of the allegations, but concluded that actions were needed to
improve the quality of care for SCI patients. We found that medical center managers had initiated
several measures to improve the SCI treatment process before our inspection began. Managers had
reassigned ten employees to other areas of the medical center and began recruiting for qualified
replacements, developed an effective cross-training program for all SCIU employees so that each
employee was capable of managing more than one function, and established round-the-clock security.
Managers and clinicians had also begun to deliberate on ways to bolster the interdiscisciplinary
treatment team process, and to streamline the quality improvement team concept.

We made the following recommendations:

       •   assess the appropriateness of the SCIU’s current mission in order to focus staff energies on
           acute care/rehabilitation,

       •   in concert with the mission reassessment, re-evaluate staffing needs to reflect the treatment
           needs of the ultimate patient population,


1-10
       •   strengthen medical record documentation of the treatment process,

       •   more actively involve employees in the SCIU performance improvement program,

       •   strengthen the interdisciplinary treatment team approach and patient care planning by
           requiring more active involvement by all team members, and

       •   comprehensively assess SCIU employee training needs in order to strengthen all SCIU
           patient care programs.

The Medical Center Director concurred with the recommendations and provided implementation plans
and actions that properly responded to the issues. (Inspection of Selected Clinical Aspects of the Spinal
Cord Injury Unit at the Department of Veterans Affairs Medical Center Hampton, VA)

Issue: Alleged Improper Clinical Privileges and Resulting Patient Harm

Conclusion: Local clinical managers did not adequately evaluate or validate a surgeon’s training and
experience and improperly awarded plastic surgery privileges.

Impact: Assurance of properly skilled physician treatment.

We reviewed allegations that medical center clinical managers had improperly awarded plastic surgery
privileges and a plastic surgery fellowship position to a surgeon who did not have the requisite training
or experience to qualify him to perform the functions of that position. The complainants also asserted
that unnamed patients had been harmed in some way because the surgeon did not know what he was
doing.

We found that the surgeon had sought a position as a plastic surgery fellow, and had requested surgical
privileges to perform a wide range of plastic surgery procedures. He provided medical center clinical
managers with a resume of the experience and training that he believed qualified him for the position.
He asserted that much of the applied surgical experience had been received in a foreign country and
could not be readily validated. Clinical managers accepted his credentials at face value and did not
personally validate any of the information as required by VA policy. When nursing employees began to
question the surgeon’s skills, clinical managers reassessed the surgeon’s qualifications and rescinded his
privileges. He was subsequently terminated from his fellowship position. Multiple clinical reviews of
his patients’ medical records failed to elicit any evidence that the surgeon had in any way harmed any
patients.

We recommended that the medical center strengthen its credentialing and privileging procedures by
ensuring that the Chief of Staff or designee personally verify and validate reported experience and
training. The Director concurred with our recommendation and initiated appropriate corrective actions.
(Inspection of Alleged Misrepresentation of Medical Credentials at a Department of Veterans Affairs
Medical Center)




                                                                                                1-11
Issue: Alleged Improper Cancellation of Planned Surgery

Conclusion: A surgeon had twice canceled the patient’s scheduled operation without sufficient
justification.

Impact: Improved scheduling procedures to prevent recurrence.

We conducted an inspection to review allegations that a medical center surgeon scheduled a woman
patient for a needed operation on two occasions and acted improperly by cancelling the operation both
times.

We found that the patient had followed medical advice prior to admission to the medical center for the
scheduled operation, and that the surgeon’s supervisors and operating room employees all believed that
the surgeon’s explanations for canceling and rescheduling the operation may not have been legitimate.
We concluded that the patient took proper control of her treatment process and scheduled her treatment
at a private health care facility.

Prior to our inspection, the surgeon involved resigned and the VAMC Director convened a Board of
Investigation to address the allegations. The Board recommended development of a policy on case
cancellations, actions to improve operating room scheduling and equipment availability, and payment of
the veteran’s medical bills. We concurred with the recommendations which were immediately acted on
by the Director, including providing an apology to the woman veteran. (Inspection of Alleged Refusal
to Operate on a Woman Veteran, Department of Veterans Affairs Medical Center Philadelphia, PA)

5. CONTROL OF DRUGS


Issue: Employee Theft/Diversion of Drugs

Conclusion: Investigations disclosed fraudulent acts by employees to obtain drugs.

Impact: Former employees are held accountable for illegal acts.

During the period, seven former VAMC employees were indicted or sentenced for theft or diversion of
drugs. In one case, a licensed practical nurse (LPN) had, diverted Demerol, used to mitigate pain, and
replaced it with saline solution. Another LPN had stolen Demerol and a pharmacy technician had stolen
numerous types of medication. These individuals received sentences of two to five years’ probation and
fines ranging from $500 to $2,000. A more detailed summation of the seven cases is included in the
section on Employee Integrity and Other Issues.




1-12
6. FEE-BASIS FRAUD

Issue: Investigation of Suspected Fraudulent Claims

Conclusion: Individuals submitted false billings and invoices for services not provided.

Impact: Individuals are held accountable for illegal acts.

•   An individual, formerly employed as a fee basis nurse for VA, pleaded guilty to one count of mail
    fraud. An investigation disclosed that, in a 4-year period, the individual billed VA for home nursing
    visits not made, submitted duplicate billings, and submitted bills for home visits to veterans who
    were either deceased or hospitalized at the time of the alleged visit. The individual was sentenced to
    6 months’ home detention, including electronic monitoring, 3 years’ probation, and 200 hours’
    community service.

•   A civil complaint was filed in U.S. District Court against an individual who worked as a fee basis
    nurse for VA. An investigation revealed that, over a 4-year period, the individual submitted false
    invoices to VA for home nursing care visits.




                                                                                                1-13
                                    BENEFIT PROGRAMS

1. DELIVERY OF BENEFITS AND SERVICES


Issue: Procedures to Prevent Dual Compensation of VA Beneficiaries Who are also Active
Military Reservists

Conclusion: Procedures to prevent dual compensation need to be improved.

Impact: Recovery of $21 million from current payments and prevention of future dual
compensation payments totalling over $8 million annually.

We conducted a review to determine whether VBA procedures ensure that disability compensation
benefits paid to active military reservists are offset from training and drill pay as required by law. We
determined VBA had not offset VA disability compensation to 90 percent of the sampled active military
reservists receiving military reserve pay. We estimated that dual compensation payments of $21 million
were made between fiscal years (FYs) 1993 and 1995 and, if the condition is not corrected, annual dual
compensation payments estimated at $8 million will continue to be made. Dual payments occurred
because procedures established between VA and the Department of Defense (DOD) were not effective
or were not fully implemented. We recommended followup on FY 1993-1996 cases to offset either
disability compensation or reservists’ pay and actions to improve procedures and communication among
VBA, DOD, and beneficiaries. The Acting Under Secretary for Benefits concurred with our findings
and recommendation and provided acceptable implementation plans. (Review of Veterans Benefits
Administration’s Procedures to Prevent Dual Compensation)

Issue: Medical Examination Services for Veterans with Pending Compensation and Pension
(C&P) Disability Claims

Conclusion: VBA and VHA can improve the quality of C&P medical examinations by
establishing performance measures and working together.

Impact: Better benefit claims service for veterans.

We conducted a review to followup on the effectiveness of actions taken on our 1994 report on the
timeliness of C&P medical examination services and to determine whether additional opportunities exist
to further enhance the quality and timeliness of medical examination services. Our prior review found
that, in FY 1993, 405,000 examination requests were processed, with 23.5 percent incomplete. In
December 1994, VBA and VHA executed a Memorandum of Understanding to jointly improve
processing procedures. Our current review found that, in FY 1996, the number of incomplete
examinations had not changed significantly, with 21.9 percent of 361,000 requests incomplete. We
recommended that VBA and VHA establish performance measures to reduce the rate of incomplete
examinations and monitor progress, and that VBA and VHA facility directors be required to work
together to reduce the percentage of incomplete examinations. The Under Secretary for Health and the
Acting Under Secretary for Benefits concurred in principle with the recommendations and provided
acceptable implementation plans. (Review of Compensation and Pension Medical Examination Services)


1-14
2. OTHER BENEFICIARY ISSUES


Issue: VBA Controls Over Appointment and Supervision of Fiduciaries

Conclusion:     VBA appointed appropriate fiduciaries to manage funds of incompetent
beneficiaries, but more effective supervision of certain fiduciaries was needed.

Impact: Reduced risk of theft and improved service to the veteran.

As a follow-up to a 1989 OIG report, we audited VBA controls over appointment and supervision of
fiduciaries appointed to protect the incomes and estates of incompetent beneficiaries. As of September
30, 1996, VBA supervised fiduciaries of more than 110,000 incompetent beneficiaries with assets
valued at over $1.4 billion.

Audit results showed that VBA appointed appropriate fiduciaries to manage the funds of incompetent
beneficiaries, but more effective supervision of certain fiduciaries was needed to reduce the risk of theft
or misuse of beneficiaries' funds. VBA needed to strengthen monitoring of fiduciaries who were
required to submit periodic reports of income, expenses, and assets by following up on questionable or
inconsistent data, independently verifying beneficiaries’ assets, and requiring documentation supporting
selected expenses reported by fiduciaries. We also concluded that the resources to perform supervisions
of higher risk fiduciaries could be obtained by providing less supervision of estates of certain
beneficiaries whose situations are stable and who are considered less vulnerable to fiduciary fraud. The
Acting Under Secretary for Benefits agreed with or provided acceptable alternatives to our
recommendations, and provided acceptable implementation plans. (Audit of Appointment and
Supervision of Fiduciaries)

Issue: Completeness of Data in VBA’s Fiduciary Beneficiary System (FBS)

Conclusion: Records needed to be established for additional beneficiaries.

Impact: Reduce the risk of theft or misuse of incompetent beneficiaries' funds.

The primary mission of VA’s fiduciary program is to ensure that incompetent beneficiaries are well
cared for, and their estates protected from fraud, waste, and abuse. We audited VBA’s Fiduciary
Beneficiary System (FBS) to determine if system data was complete. We concluded that some
beneficiaries did not have records because VBA personnel overlooked, or were unaware of, applicable
policies and procedures, and because of clerical errors. Establishing appropriate FBS records would
help fiduciary program personnel monitor the financial affairs of incompetent beneficiaries, and reduce
the risk of theft or misuse of the beneficiaries' funds.

We recommended that VBA establish the appropriate FBS records and periodically compare C&P data
to the FBS to identify incompetent beneficiaries with no FBS records and establish FBS records when
appropriate. The Acting Under Secretary for Benefits agreed with our recommendations and provided
acceptable implementation plans. (Completeness of Data in the Veteran’s Benefits Administration’s
Fiduciary Beneficiary System)

                                                                                                 1-15
3. LOAN GUARANTY PROGRAM FRAUD


Issue: Fraud in Loan Guaranty Program

Conclusion: The Loan Guaranty Program remains vulnerable to fraud involving loan
origination and equity skimming.

Impact: Individuals are held accountable for illegal acts.

Loan Origination Fraud

•   The owner of several real estate and investment companies pleaded guilty to charges of wire fraud
    and conspiracy. A joint investigation by VA OIG and the Department of Housing & Urban
    Development (HUD) revealed that the individual conspired to defraud VA, HUD, and two
    mortgage companies through the acquisition, financing, and sale of real property by deceptive
    means. The individual purchased 34 distressed residential properties of low value which were then
    cycled through various companies he owned in order to artificially inflate the market value of the
    properties. These properties were then sold to individuals, many of whom were active duty military
    members, who were recruited and fraudulently qualified for the loans needed to consummate the
    sales. As part of the plea, the individual agreed to property forfeitures totaling $2,746,564.
    Sentencing is pending.

•   The owner of a real estate brokerage firm was sentenced to 30 months’ imprisonment, 36 months’
    supervised probation, fined $6,000, and ordered to make restitution of $45,171 to the Government.
    He previously pleaded guilty to conspiracy to defraud VA, making false statements to VA, and
    fraudulent use of Social Security numbers. A VA OIG investigation disclosed that the broker and
    co-conspirators submitted false information to make applicants for VA guaranteed mortgage loans
    appear creditworthy when, in fact, they were not qualified for these loans. In addition to the broker,
    six real estate agents affiliated with his firm also have been charged with defrauding VA. Five have
    pleaded guilty and one was convicted following a 4-day trial in U.S. District Court.

•   An individual was arrested following an indictment by a Federal grand jury, which charged him with
    three counts of making false statements and one count of using a false Social Security number. The
    individual made false statements to VA regarding his employment, income, and Social Security
    number in order to qualify for the purchase of a VA portfolio home. A trial date is pending.

Equity Skimming

•   Five subjects were arrested after a joint VA OIG, FBI, and IRS/CID investigation revealed that the
    individuals were engaged in equity skimming schemes and related criminal activities. The
    investigation revealed that the five individuals identified mortgage borrowers who were in default on
    their loans, including VA guaranteed loans. The individuals then contacted the property owners and
    led them to believe that, by deeding the property to one of the individuals and agreeing to pay rent
    while continuing to reside at the premises, the rent payment would go toward payment of debt and
    the mortgage would be saved. The investigation disclosed that none of the rent money was paid on

1-16
    the mortgages but was retained by the individuals accused. In all, there were 15 mortgages and
    properties involved in this scheme. One of the individuals also was indicted on 31 counts of
    defrauding financial institutions, businesses, and Government agencies.

4. BENEFICIARY FRAUD


Issue: Integrity of Beneficiary Programs

Conclusion: Fraud continues in dependency and indemnity compensation, pension, fiduciary,
insurance, education, compensation, and other programs.

Impact: Individuals are held accountable for illegal acts.

Dependency and Indemnity Compensation Benefits

•   An individual was sentenced to 60 months’ supervised probation after pleading guilty to theft of
    Government funds. An investigation disclosed that the individual negotiated Dependency and
    Indemnity Compensation (DIC) checks issued to his mother following her death. Loss to VA was
    in excess of $46,000.

•   An individual pleaded guilty to one count of theft of Government funds. An investigation revealed
    that the individual had been collecting and negotiating monthly benefit checks that were issued to a
    relative who died over 25 years ago. The individual claimed to be using the funds as compensation
    for having cared for the relative. Loss to VA was over $175,000. Sentencing is pending.

•   An individual pleaded guilty to one count of theft of Government property. A VA OIG
    investigation revealed that, over a 5-year period, the individual endorsed U.S. Treasury checks
    representing DIC benefits payable to his deceased mother. The individual’s actions resulted in a loss
    to the Government in excess of $50,000. Sentencing is pending.

•   Two individuals pleaded guilty to one count each of conspiracy to defraud the United States. A joint
    investigation conducted by VA OIG, the Air Force Office of Special Investigations, and the U.S.
    Secret Service revealed that the individuals conspired to misappropriate VA DIC benefits and U.S.
    Air Force pension payments. The loss to the Government was $207,287. The individuals each face
    up to 5 years’ incarceration and up to $250,000 in fines.




                                                                                               1-17
Pension Fraud

•   An individual pleaded guilty to theft of Government funds, false statements, and fraudulent
    acceptance of payments. An investigation revealed that the individual fraudulently received VA
    benefits while failing to report income received for work. Loss to VA was over $26,000.

Fiduciary Fraud

•   An individual employed as a county veterans service officer was sentenced to 46 months’
    imprisonment, 3 years’ probation, and fined $10,000. The sentence also included an additional 12
    months in prison for obstruction of justice during the sentencing process, for providing false
    testimony and evidence to the court. The individual previously was convicted of making false
    statements to VA, involvement in schemes to defraud over 17 disabled veterans for whom he acted
    as fiduciary, and for filing false personal income tax returns. The individual’s co-conspirator, a
    former counselor at a VAMC, pleaded guilty to a conspiracy charge involving a kickback scheme
    and testified against the individual at trial.

•   An individual was sentenced to 21 months’ imprisonment, 2 years’ probation and ordered to pay
    over $4,000 in restitution to a disabled veteran for whom the individual was appointed as fiduciary.
    An investigation revealed that the individual, acting as court-appointed fiduciary for two disabled
    veterans, misappropriated money from the veterans’ accounts and made false statements to both VA
    and a state agency to conceal the missing funds.

•   An individual acting as fiduciary for the widow of a deceased veteran pleaded guilty to a charge of
    theft of Government funds. A VA OIG investigation revealed that the fiduciary failed to report the
    widow’s death in July 1994, subsequently converting for her own use 21 VA benefit checks totaling
    $20,836 in a 2-year period. Sentencing is pending.

Insurance Benefits Fraud

•   Three individuals, one a former VA insurance claims examiner, were sentenced after pleading guilty
    in U.S. District Court, for their roles in the theft of VA insurance benefits. The former insurance
    claims examiner was sentenced to 4 months in a community halfway center, 5 years’ probation, a
    $2,000 fine, and was ordered to pay $19,904 in restitution to VA. The second individual, not a VA
    employee, was sentenced to 3 years’ probation, 50 hours’ community service and fined $1,000. The
    third individual was sentenced to 6 months’ home detention, 5 years’ supervised probation, a $2,000
    fine and ordered to make restitution in the amount of $19,905 after pleading guilty to 4 counts of
    theft of public monies. A joint VA OIG/U.S. Secret Service investigation revealed that the
    conspirators diverted approximately $40,000 in proceeds from unclaimed VA insurance policies that
    had matured or were payable due to the death of insured veterans but for which the beneficiaries
    could not be located. In addition, two checks totaling approximately $18,000 were seized when the
    defendants attempted to cash them and were arrested by local police.




1-18
Education Benefits Fraud

•   Three college instructors and two student instructional aides were indicted for their roles in the
    fraudulent payment of VA educational assistance benefits to veterans enrolled at a community
    college. A 3-year joint investigation by VA OIG and the Postal Inspection Service disclosed a
    “special program” that existed from 1988 to 1995 through which over 300 student veterans
    obtained over $3.8 million, without attending regular classes, by paying kickbacks up to $200 per
    student each semester. As a result of the investigation, VBA announced administrative sanctions
    against the college and a program of frequent, on-site compliance inspections. In a collateral action,
    the U.S. Attorney’s Office has recovered $370,000 in restitution and additional efforts are
    continuing.

Compensation Fraud

•   An individual was convicted on 40 counts of mail and wire fraud, and for making false statements. A
    joint VA OIG/FBI investigation revealed that the individual, by posing for more than 20 years as a
    wheelchair bound veteran who had lost use of his right arm and leg, collected disability benefits
    from VA amounting to more than $500,000. Testimony from business people, contractors, and
    medical workers established that the individual was not disabled, and co-owned and operated a
    successful commercial painting business.

•   An individual was sentenced to 120 months’ imprisonment and his spouse to 12 months’
    imprisonment in connection with a telemarketing scheme that defrauded consumers of over $31
    million. A joint VA OIG, FBI, and IRS investigation revealed that, while operating a business that
    defrauded consumers in the sales of vending and game machines, he was collecting disability benefits
    from VA based on, at first, a 30 percent disability rating, and later, a 100 percent disability rating.
    In addition, the couple evaded paying income taxes by disguising payments received from the
    vending machine sales. Over an 11-year period, the individual collected benefit payments from VA
    in excess of $200,000.

•   An individual who had pleaded guilty to charges of false claims and theft of Government property
    was sentenced to 5 years’ probation, 90 days to be served in a community center, and 80 hours of
    community service. A VA OIG investigation revealed that the individual falsely completed annual
    employment questionnaires certifying that he was unemployed in order to receive service-connected
    disability at the 100 percent rate when, in fact, he was employed as a teacher. Additionally, the
    individual admitted that family members wrongfully received VA educational benefits based on the
    false unemployment claims. The loss to VA was over $150,000; restitution is being made by
    reducing the individual’s future VA entitlements until the debt has been satisfied.

Other

•   A civil complaint was filed charging a husband and wife with one count each of false claims and
    conspiracy to defraud the United States. The complaint charges that both individuals presented
    claims for $1,000,000 and $200,000, respectively, to VA under the Federal Tort Claims Act,
    claiming VA had been negligent in providing medical treatment to the husband, resulting in the
    subsequent loss of consortium. On both claim forms, the individuals stated their status as married
    when, in fact, they were not married at the time the alleged negligent treatment occurred.

                                                                                                 1-19
                               FINANCIAL MANAGEMENT

1. VA’S FINANCIAL STATEMENTS


Issue: VA’s Accounting Operations

Conclusion:     Additional management actions are needed to further improve accounting
operations.

Impact: Improved accuracy of financial information.

For FY 1996, VA reported assets totaling $43.4 billion and expenses totaling $43.9 billion. As part of
our ongoing work on the Audit of VA’s Consolidated Financial Statements (CFS), we issued nine
reports – eight management letter reports resulting from OIG reviews of financial information and one
report resulting from a contractor review of two Financial Management System (FMS) subsystems. The
reports are intended to provide Department managers observations and advice for improving accounting
operations and controls in day-to day operations. A summation of these reports follows.

The first management letter concluded that financial information processed at the Austin Finance Center
was generally reliable for operations and transactions tested. However, operations could be enhanced
by ensuring that (i) compensating controls were in place where prescribed separation of duty controls
were impractical, (ii) user identifications in VA’s FMS reflected each employees’ current employment
status, (iii) manual payroll accruals were reversed, (iv) reconciliation of the Minor Construction
Appropriation with U.S. Treasury records was completed timely, and (v) staff emphasize accuracy when
coding FMS disbursement transactions that could affect the reliability of management reports.
(Management Letter - FY 1996 Selected Accounting Operations and Systems at Austin Finance
Center)

The second management letter concluded that staff established required internal controls for monitoring
financial information, and generally complied with VA policies and procedures based on audit tests
made and had made improvements during the past year. However, there remained three areas in which
further improvements would be beneficial. These concerned (i) improving data used to calculate the
future liability for Compensation and Pension (C&P) benefits, (ii) improving the financial statement
preparation process, and (iii) strengthening policies and procedures for contract counseling accounting.
(Management Letter - Tests of Selected Veterans Benefits Programs Accounting Functions Performed
at VA Central Office)

Three management letters concluded that much progress had been made in improving Property, Plant,
and Equipment (PP&E) reporting, but that continuing efforts were needed to further refine the accuracy
of PP&E accounting information. The first management letter provided information and observations
from our overall analysis of PP&E data in the general ledger and fixed asset subsystem, and encouraged
VHA and the Chief Financial Officer (CFO) to improve internal controls by continuing efforts to
oversee PP&E accounting activities, provide additional guidance and training, and to analyze PP&E
accounts and provide operating facilities the results when adjustments are needed. The other two
management letters described actions needed at the facility level to help ensure the accuracy of PP&E
information in the general ledger. Actions needed included efforts to ensure: (i) reconciliations of

1-20
property accounts are completed and appropriate adjustments are made, (ii) physical inventories are
completed as required, and (iii) costs in the construction work-in-process are capitalized when the
resulting building or improvement is put into service. (Three Management Letters - Management
Oversight of Property, Plant, and Equipment Financial Information; Accuracy of Non-Expendable
Equipment Financial Information; and Accuracy of Real Property Financial Information)

A sixth management letter concluded that staff established required internal controls for monitoring life
insurance financial information, and generally complied with VA policies and procedures based on audit
tests made. Of the eight conditions discussed in our prior year audit report, one had been overtaken by
events, management had corrected two, and actions were in process to correct the other five. No new
conditions were identified in this year’s audit. (Management Letter - FY 1996 Financial Statement VA
Life Insurance Programs)

A seventh management letter provided additional explanation and detail regarding a reportable
condition in our previous report on VA’s FY 1996 Consolidated Financial Statements to aid in
establishing an effective corrective plan. We concluded stronger financial reporting controls were
necessary to provide reasonable assurance that transactions continue to be properly reported, and that
material misstatements would be prevented or detected in three areas: (i) the automation and integration
of financial accounting and reporting systems, (ii) financial and credit reform accounting training of staff
responsible for HCA financial data, and (iii) review of financial data and reports. (Management Letter -
Tests of Selected VA Housing Credit Assistance Accounting Functions Performed at VA Central
Office)

We conducted the eighth review at management’s request. We evaluated accounting procedures used
to resolve errors caused by data limitations in some total dollar fields resulting in truncation during the
February 1997 transfer of active policy master records from the computer data base administered by the
St. Paul, MN Department of Veterans Affairs Regional Office and Insurance Center (VAROIC) to the
VAROIC Philadelphia, PA data base. In our advisory, we concluded that management performed
adequate adjustments to general ledger insurance accounts to resolve errors in certain fields which
occurred during the first in a series of data transfers. In addition, management’s procedures should
adequately preserve the integrity of financial data transferred during the consolidation. (Adequacy of
Procedures Used to Transfer Life Insurance Policy Data from VAROIC St. Paul, MN to VAROIC
Philadelphia, PA)

The ninth report contained the results of a requested contractor review. The contractor concluded that
application controls incorporated into the Accounts Receivable Subsystem and the Fixed Asset
Subsystem of VA’s FMS were adequate. However, the general controls over the information systems
did not adequately ensure that computer programs and data files were protected from unauthorized
access and modification. The review identified 9 reportable conditions and 15 significant but less
important management letter comments. VA management agreed with all but two items. We will
follow-up and evaluate the effectiveness of the actions and related compensating controls for all items in
our Audit of VA’s FY 1997 Consolidated Financial Statements (CFS). (Electronic Data Processing
Controls in the Financial Management System Accounts Receivable and Fixed Asset Subsystems)


None of the conditions noted above for the nine reports had a material financial effect on the FY 1996
CFS, but correction of the conditions is considered necessary for effective operations. Where needed,
appropriate adjustments were made to the financial statements.
                                                                                                  1-21
2. OTHER FINANCIAL CONTROL ISSUES


Issue: Duplicate Payments

Conclusion: Collection actions should be pursued on duplicate payments

Impact: Repayment of over $1 million.

As part of our ongoing audit of VA’s financial operations and reporting, we identified two duplicate
payments made to a commercial vendor totaling over $1 million that had not been previously detected.
VA Central Office financial staff promptly confirmed the overpayment and sent a collection letter, and
the vendor paid the amount due. VA management officials agreed that collection efforts should be
handled in a timely manner, and agreed to aggressively pursue collection of duplicate payments.
(Duplicate Payments)

Issue: VHA’s Income Verification Procedures for Veterans Reporting No Income

Conclusion: VHA facilities should obtain means test information from veterans, and conduct
periodic reviews of zero income means tests.

Impact: Improved compliance with means test and Privacy Act requirements.

Each year, VHA’s Health Eligibility Center (HEC) matches VA’s records with the records of the
Internal Revenue Service and Social Security Administration based on income information provided by
VHA facilities. During FY 1996, HEC matched 726,758 veteran records and identified 106,029
veterans whose incomes exceeded statutory thresholds, and who were potentially responsible for
making medical care co-payments.

We reviewed VHA procedures for verification of veterans reporting no income on means tests, and
assessed VHA compliance with means test and Privacy Act requirements. We found that over 87
percent of the cases reviewed had no signed means test documents to attest to the accuracy of income
information reported or to certify receipt of the Privacy Act statement. We also found that VHA lost
the opportunity to collect over $3 million because some veterans had been erroneously identified as
exempt from co-payments. We recommended that VHA take action to improve compliance with means
test and Privacy Act requirements, including ensuring that VHA facilities obtain means test and Privacy
Act information, and requiring VISN Directors to conduct periodic reviews of zero income means tests.
The Under Secretary concurred with the findings and recommendations and provided an acceptable
implementation plan. (Means Testing and Income Verification Procedures)




1-22
                  INFORMATION RESOURCES MANAGEMENT

1. TELEPHONE ACCESS SYSTEMS


Issue: Personal Identification Number (PIN) Telephone Access Systems

Conclusion: VA could reduce overall telephone costs by installing the PIN system nationwide.

Impact: Telephone costs could be reduced by over $10 million annually.

In Fiscal Year 1996, VA medical centers spent about $22.4 million on long distance services (62
percent of VA’s $36.1 million long distance costs). We evaluated the effectiveness of PIN telephone
access systems used by three VAMCs. The three VAMCs had installed PIN access systems as a means
of reducing telephone costs and improving accountability over telephone usage. They reported that
system installation costs were minimal, accountability for telephone usage had improved, and long
distance expenses had been reduced by an average of 68.9 percent, with total annual savings estimated
at $934,000.

We contacted all 158 other VAMCs and found that 148 VAMCs did not have PIN systems or plans to
install them. Based on the experience of the three VAMCs reviewed, we concluded telephone costs
could be reduced by an estimated $10.1 million annually if all VAMCs installed PIN systems. In
addition, VBA, NCS, and VA Central Office activities could benefit from installing PIN systems. We
recommended that management officials inform facilities and activities about the benefits of PIN access
and encourage installation in existing telephone systems, and/or integration of PIN access with new
telephone systems or upgrades.

The Under Secretary for Health concurred with the recommendations and stated that VHA had initiated
actions to install PIN systems at all VAMCs, as appropriate, with first-year start up costs expected to be
about $10.8 million. The Acting Under Secretary for Benefits; Director, National Cemetery System;
and Assistant Secretary for Management all expressed an interest and commitment to improving
telephone system management and reducing long distance costs. (VA Use of Personal Identification
Number Telephone Access Systems)

2. SECURITY CONTROLS OVER AUTOMATED BENEFITS PAYMENTS


Issue: Adequacy and Appropriateness of Security Controls at Hines Benefits Delivery Center
(BDC)

Conclusion: The BDC needed to establish a proactive security program, and correct weaknesses
identified by the audit.

Impact: Improved security



                                                                                                1-23
We evaluated the adequacy and appropriateness of security controls at the Hines Benefits Delivery
Center (BDC), focusing on areas where management could strengthen physical and electronic access
controls. In FY 1996, the BDC provided key automation support for processing over 40 million benefit
payments totaling $20 billion to veterans and their families. The audit identified a number of key
security enhancement opportunities needed to make the BDC facility more physically secure and less
vulnerable to unauthorized electronic access of systems and data. The BDC Director concurred with
our recommendations and agreed to: establish a proactive security program, complete a risk assessment,
and implement necessary physical and electronic security controls to correct weaknesses identified by
the audit. (Security Controls at the Hines Benefits Delivery Center)

3. INTEGRATION OF COMMERCIAL SOFTWARE IN VHA SYSTEMS


Issue: Integration of Commercial Off-the-Shelf Software into VHA Systems

Conclusion: VHA has made progress integrating commercial software.

Impact: Improved compatibility between VHA computer software systems, resulting in better
service to veterans.

As part of our audit of the Veterans Health Information System and Technology Architecture (VISTA),
we evaluated the effectiveness of VHA efforts to integrate commercial off-the-shelf software
applications into VISTA. We found that VHA has been reviewing methods for integrating commercial
software into VISTA, and has made progress assisting VAMC programmers in integration efforts.
Three of the seven commercial software applications were successfully integrated with VISTA, and
satisfactory progress had been made toward integrating the remaining four applications. A Message
Routing and Translation System (MRTS) had been installed at one medical center, which allows
commercial software to be recognized by VHA internal computer systems and has the potential to
lessen the burden of adapting commercial software to VISTA.

We also found that nationwide use of MRTS technology has been delayed because VA management
officials have differing opinions on deployment and funding strategies for MRTS. We recommended
that VHA and the Office of Management determine whether to continue to use MRTS or develop
another alternative approach to the system integration.

The Under Secretary for Health and the Assistant Secretary for Management concurred in principle and
the Under Secretary agreed to establish a working group to review alternatives, including the MRTS.
(Efforts to Integrate Commercially-Developed Software to Hospital Information Systems)




1-24
                   EMPLOYEE INTEGRITY AND OTHER ISSUES

1. SPECIALIZED INVESTIGATIONS


Issue: Specialized Investigations Regional Task Force (SIRTF) Investigations

Conclusion: SIRTF investigations continue to disclose sales of controlled substances, workers’
compensation fraud, and corruption.

Impact: Individuals are held accountable for illegal acts.

The SIRTF is an enforcement unit comprised of special agents from the VA OIG and VHA. Under the
direct control of the VA OIG, SIRTF became operational in the spring of 1994, and has successfully
investigated allegations of drug diversion, sales of controlled substances, sales and possession of
firearms, and other criminal violations occurring at VAMCs in the New York metropolitan area.

SIRTF was created in response to concerns voiced by the directors of three New York area VAMCs
over various criminal activities taking place at their facilities. The VA OIG’s assistance was sought
because federal agencies such as the DEA and the FBI have workloads and priorities which often
preclude addressing criminal activity at VAMCs. In addition, VA Security Police lack the personnel
and expertise to conduct these investigations, and local authorities were unable or unwilling to devote
limited resources to what they perceived as a Federal problem.

In the three years that SIRTF has been operational, the unit has achieved a remarkable record of
success. Initially targeted at the criminal activities mentioned above, the unit’s role was expanded to
include the investigation of workers’ compensation fraud, a problem that was costing VA millions of
dollars each year, funds that could be spent on our nation’s veterans. This effort also enjoyed great
success as indicated by the cases cited below.

Controlled Substances

•   An individual pleaded guilty to charges of distribution and possession with intent to distribute
    cocaine after selling cocaine to an undercover special agent assigned to SIRTF on the grounds of a
    VAMC. The individual was sentenced to 30 months’ imprisonment followed by 6 years’ probation.

•   An individual was sentenced to 5 years’ probation after pleading guilty to the illegal sale of
    controlled substances. An investigation conducted by SIRTF determined that the controlled
    substance, Percocet, which he sold to an undercover agent, was diverted from a VA pharmacy.

•   A former Environmental Management Services employee at a VAMC pleaded guilty to charges of
    distribution of, and possession with intent to distribute, controlled substances. A joint investigation
    by special agents from VA OIG and SIRTF revealed that the individual purchased drugs in large
    quantities from local neighborhood drug establishments, and resold the drugs for profit inside and
    outside the VAMC to employees and patients. Sentencing is pending.



                                                                                                 1-25
Workers’ Compensation Fraud

•   The former Director of a Regional Educational Medical Center at a VAMC signed a settlement
    agreement with the U.S. Attorney’s Office to make restitution in the amount of $260,000 for
    overpayment of workers’ compensation benefits. An investigation conducted by SIRTF revealed
    that for almost 8 years, the individual was employed in various pursuits, including ownership of a
    real estate management company, operating a private medical practice, and teaching in Europe and
    the Far East, while collecting workers’ compensation benefits.

•   A former motor vehicle operator at a VAMC was sentenced to 5 years’ probation, 6 months’ home
    detention and ordered to pay the Government $85,800 in restitution. The individual pleaded guilty
    to one count of making false statements in order to receive workers’ compensation benefits as a
    result of a SIRTF investigation. The individual admitted that, over a 6-year period, he submitted
    false statements to the Government indicating he was unable to work due to an on-the-job injury
    received at the medical center. During that period, he received over $85,000 in workers’
    compensation benefits while owning and operating a restaurant, where he was observed engaging in
    strenuous physical activity. The estimated Office of Workers’ Compensation Program (OWCP)
    costs that will not be paid out as a result of his removal from the program are $200,000.

•   A former Chief of Labor Relations at a VAMC was sentenced to 4 months’ imprisonment, 5
    months’ home confinement, and 19 months’ supervised release after pleading guilty to conspiracy to
    commit workers’ compensation fraud. An investigation by SIRTF revealed that the individual
    assisted her husband, who previously pleaded guilty in this case, in submitting false claims to the
    Department of Labor in order to receive workers’ compensation benefits.

•   A former food service worker at a VAMC was sentenced to 60 months’ probation and ordered to
    pay $14,042 in restitution to the Government. The employee claimed to have injured his lower back
    during 1992 while working at the medical center. He subsequently received $29,049 in workers'
    compensation payments. An investigation conducted by SIRTF revealed that the food service
    worker was employed as a home health care attendant while receiving benefits and failed to report
    the income as required by the Department of Labor. The estimated OWCP costs that will not be
    paid out as a result of the conviction and termination from the program are approximately $374,000.

Corruption

•   A former VAMC police sergeant was sentenced to 15 months’ imprisonment and 3 years’ probation
    after pleading guilty to bribery of a public official. An investigation by SIRTF revealed that the
    former employee accepted money and things of value from an undercover agent in exchange for
    allowing the sale of narcotic drugs inside the VAMC cafeteria. During the undercover operation, 20
    individuals were arrested for possession or distribution of narcotics at the VAMC.




1-26
2. EMPLOYEE AND THIRD-PARTY INTEGRITY


Issue: Investigations of Misconduct and/or Illegal Acts by Employees and Third Parties

Conclusion: Instances of thief, embezzlement, bribery, fraud, and other acts of misconduct were
disclosed.

Impact: Individuals are held accountable for illegal acts.

Employee Theft/Diversion of Pharmaceuticals

•   A licensed practical nurse in the Nursing Home Care Unit at a VAMC was sentenced to 5 years'
    probation, 360 hours' community service, and ordered to pay a fine of $2,000. The nurse had
    pleaded guilty to one felony count of obtaining the administration of a narcotic drug and one
    misdemeanor count of reckless endangerment. A joint investigation by VA OIG, DEA, and local
    authorities revealed that the nurse had diverted Demerol, used to mitigate patient pain, and replaced
    it with saline solution. If undetected, the saline solution, when administered to a patient needing
    medication for pain control, would have no effect and would constitute patient abuse. The
    individual was placed on administrative leave by VAMC officials and has since resigned.

•   A former licensed practical nurse at a VAMC was sentenced to 4 years’ imprisonment (suspended),
    4 years’ probation, and fined $850 following a guilty plea to 31 counts of theft by deception of a
    controlled substance. A VA OIG investigation revealed that the nurse diverted Demerol from the
    hospital ward while on duty by signing out doses to patients who had already been discharged.

•   A former pharmacy technician at a VAMC was sentenced to 2 years’ supervised probation, 200
    hours of community service, and fined $500. He previously pleaded guilty to the theft of
    Government property. An investigation revealed that he had stolen numerous types of medication
    and other items from the medical center pharmacy for his own use.

•   Two former VA employees, a food service worker and a housekeeping aide at a VAMC, were
    arraigned before a Federal Magistrate Judge following their arrest on charges of possession with
    intent to distribute marijuana and cocaine. A VA OIG investigation revealed that the individuals
    were selling controlled substances to substance abuse patients at the VAMC. Both individuals have
    prior criminal records. A trial date is pending.

•   A former employee at a VAMC was arraigned in state court in response to a superseding indictment
    charging the individual with three counts of selling controlled substances on VAMC property. A VA
    OIG investigation revealed that the individual sold heroin to undercover agents inside of, and on
    property adjacent to, the VAMC. A trial date is pending.

•   A former pharmacist at a VAMC was indicted by a Federal grand jury on 11 counts of distribution
    of a controlled substance. The former employee was charged with forging prescriptions to divert
    Percocet, morphine sulfate, and Darvon. In a sworn statement taken by VA OIG special agents, the
    employee admitted forging the prescriptions and subsequently resigned from VA employment.

                                                                                               1-27
Theft and Embezzlement

•   The former president of a labor union at a VAMC pleaded guilty to charges of conspiracy, mail
    fraud, making false statements, and concealing material facts from the Department of Labor, all in
    connection with the embezzlement of union funds; and to filing false Federal income tax returns and
    possession of a firearm in a Federal facility. The union officer had been employed at the VAMC as a
    morgue technician. A joint VA OIG, IRS, and Department of Labor investigation determined that
    approximately $190,000 of union funds had been misappropriated. The individual and co-
    conspirators caused false Labor Organization Annual Reports to be mailed to the Department of
    Labor.

•   Three individuals pleaded guilty to charges of conspiracy and theft of Government funds and were
    sentenced to serve various terms of home confinement, probation, community service and
    restitution. An investigation revealed that the individuals fraudulently caused five U.S. Treasury
    checks to be generated and mailed to a non-existent vendor. The checks were then cashed and the
    money funneled through two bank accounts opened under a false identity. The money was
    distributed among the three conspirators. The loss to VA was over $88,800.

•   A husband and wife both resigned their positions as medical clerks at a VAMC after receiving
    notices of proposed removal actions. These actions were based on information developed as a
    result of a joint investigation by the VA OIG and the Postal Inspection Service. While working at
    the hospital, the husband allegedly stole pre-approved credit card applications and other mailings
    intended for patients and, using personal information from the VA computer system, obtained credit
    cards in the names of patients. The couple allegedly used the credit cards to purchase various items
    and services, and to obtain cash for their personal use.

•   Two former VA employees were voluntarily separated from Government service following charges
    of unauthorized use of Government property. A joint investigation by the VA OIG and local police
    revealed that the first individual, the former chief of Community Resource Services at a VAMC,
    used a Government-issued credit card for personal purchases of musical equipment and permitted
    the inappropriate use of the credit card by unauthorized parties, including VAMC volunteers, in
    over 20 instances. The second individual, a former VA program specialist in Community Resource
    Services, was charged with use of the Government-issued credit card for personal items.

Acceptance of Gratuity

•   A former VA benefits counselor was sentenced to 4 months' home detention and 5 years' probation
    after pleading guilty to a two-count Information charging him with the acceptance of a gratuity by a
    public official. The Information charged that, while he was a VA employee, he accepted cash
    payments to expedite processing of various VA loan application documents.




1-28
Workers’ Compensation Fraud

•   A former claims clerk at a VAMC was sentenced to 6 months in prison; 3 years’ supervised release,
    with the first 6 months’ in home confinement; and ordered to pay restitution in the amount of
    $46,245. The sentence followed her conviction on a three-count indictment charging her with
    making false statements to obtain workers’ compensation benefits. A VA OIG investigation
    revealed that the individual worked as a licensed vocational nurse while claiming workers’
    compensation benefits. She failed to report employment income on documentation submitted to the
    Department of Labor in order to receive benefits in excess of $159,000.

•   An individual was sentenced to 20 months’ imprisonment, 36 months’ probation, and was ordered
    to pay $14,500 in restitution to VA. The individual pleaded guilty to multiple counts of fraud
    against the Government following a joint investigation by the VA OIG, Department of Labor OIG,
    FBI, and Army Criminal Investigations Division. The investigation determined that the individual
    submitted fraudulent claims of unemployability over a 3-year period causing the Government to pay
    approximately $80,000 in workers’ compensation and VA pension benefits to which he was not
    entitled.

•   A former registered nurse at a VAMC was indicted on one count of making false statements on
    Department of Labor workers' compensation forms. An investigation disclosed that the nurse was
    employed by at least two home health care services while reporting that she had no outside income.
    She was paid approximately $181,000 in workers' compensation payments.

Other Employee Misconduct

•   A Federal grand jury returned a superseding indictment charging a physician, formerly assigned to a
    residency program at a VAMC, with one count of false statements, and five counts of possession of
    controlled substances by misrepresentation, deception and subterfuge. The individual was originally
    indicted in July 1997 for the false statement charge only. It is charged that, in connection with his
    application to enter a residency program at a state university, he failed to disclose to officials that he
    had been convicted and incarcerated for assault arising from the non-lethal poisoning of his co-
    workers while employed as a paramedic. Upon his assignment to the VAMC, he was able to
    dispense controlled substances including Demerol and morphine. In 1993, an arrest warrant was
    issued based on the false statement charge. The individual left the United States at that time and
    accepted an appointment as a resident at a mission hospital in Zimbabwe. An arrest warrant was
    issued in Zimbabwe charging him with five counts of murder and two counts of attempted murder of
    patients at that hospital. He was arrested upon his return to the United States in July 1997. He is
    being held in Federal custody pending trial on the false statement and controlled substance charges.
    If convicted, he could receive a maximum sentence of 25 years’ imprisonment and $150,000 fine.

•   Two individuals, one a VAMC Environmental Management Service Chief, were indicted by a
    Federal grand jury on 36 counts, including conspiracy, money laundering, theft of Government
    funds, and making false claims to VA. The two individuals were arrested shortly thereafter.




                                                                                                    1-29
•   A joint VA OIG/FBI investigation disclosed that the Chief of Environmental Management Service
    used her management position to authorize the procurement of, and approve the payment for, over
    $55,000 for decorating services rendered to the medical center when, in fact, no services were
    provided. Payments for invoices submitted for the alleged services were made using Government
    checks while the official Government credit card was used in other instances.

•   Two former physicians at a VAMC resigned their positions and a third physician submitted
    retirement papers as a result of a joint VA OIG and FBI investigation. The investigation revealed
    that the individuals conspired in a scheme to defraud VA by placing resident physicians from the
    VAMC on a rotating schedule where they spent up to 30 percent of their time staffing a privately
    run clinic owned by one of the physicians.

•   A certified registered nurse anesthetist at a VAMC has been indicted on one count each of felony
    theft and practicing medicine without a license. A joint investigation, conducted by VA OIG and
    local police, determined that the individual, while on sick leave from the VAMC, was posing as a
    licensed physician and treating patients in her own private office.

•   A former staff psychiatrist at a VAMC resigned after a VA OIG investigation revealed that the
    individual was never qualified, either by accreditation or education, as a board-certified psychiatrist,
    as had been claimed. The individual was, however, licensed as a general practitioner. The individual
    had been placed on a special pay scale commensurate with the position of staff psychiatrist, resulting
    in an overpayment of $119,000. Restitution will be made to the VAMC.

•   The chief of a VA outpatient clinic was removed from that position and punitively transferred to a
    staff physician position on charges of unethical conduct and conflict of interest. An investigation
    revealed that the individual used clinic personnel and equipment in the treatment of family members;
    used the services of clinic employees to perform personal services during duty hours; and accepted
    free, non-emergency transportation from an ambulance company that provides patient transportation
    services for the clinic.

•   A physician at a VAMC was issued a letter of reprimand for violations of VA Standards of Ethical
    Conduct and Common Standards of Work Behavior. An investigation revealed that the individual
    was writing prescriptions for a VA employee, even though the physician was not the employee’s
    personal physician; did not perform a medical examination on the employee to determine the
    necessity for the prescribed medication; and had no reason to prescribe large quantities of drugs for
    the employee.

•   A former VA rating specialist at a VA Medical & Regional Office Center (VAMROC) was indicted
    on one count of mail fraud. A VA OIG investigation disclosed that the individual made false
    statements in order to obtain over $24,000 in VA benefits for post traumatic stress disorder that the
    individual was not entitled to receive, which caused numerous VA benefits checks to be delivered by
    the U.S. Postal Service. The individual has resigned from Government service.




1-30
Issue: Special Inquiries of Alleged Employee Misconduct or Mismanagement

Conclusion: Various conditions were substantiated, but willful misconduct or mismanagement
as a cause was rarely disclosed.

Impact: Collection of salary overpayments totalling over $76,000, cancellation of planned
employee demotion, transfer of unused equipment, and administrative action.

During the period, we issued eight special inquiry reports. Following are summations of five of the more significant
reports issued:

•   A special inquiry found that three employees were inappropriately appointed to the step 10 grade level. This
    occurred because of an apparent contradiction in Federal pay setting requirements in effect at the time of the actions.
    Medical Center management adjusted the salaries of two of the employees still employed at the time of our report.
    Collection actions were also initiated to recover $76,382 in overpayments made to the two current employees and one
    former employee.

•   Another special inquiry found that management had inappropriately issued a decision to "reassign" a white collar
    employee to a blue collar position. When we examined the action, we found that the "reassignment" actually
    constituted a demotion under Federal personnel rules. Since the Medical Center had not followed required
    procedures for an involuntary demotion, the action was improper. The Medical Center canceled the pending
    reassignment and assigned the employee to a position at the appropriate grade level.

•   A third special inquiry concluded that a supervisor treated one staff member differently by allowing that employee to
    work beyond his normal duty hours, while other staff were directed not to do so. The inquiry further concluded that
    the same employee engaged in improper practices relating to a commercial business in which he had a financial
    interest. Both matters were satisfactorily resolved. We also brought additional concerns to management’s attention,
    including indications of a disruptive working environment and an additional instance of disparate employee
    treatment.

•   In another special inquiry, we found that a VAMC acquired an infectious waste sterilizer, spent nearly $170,000 in
    site preparation and repair, but was never able to operate the machine. At our suggestion, the Director planned to
    provide the machine to another facility that could use it.

•   In a fifth special inquiry, we found that two service chiefs coerced subordinates to join a personal business venture.
    The allegations had been investigated by the VAMC Director and appropriate administrative actions were taken.




                                                                                                               1-31
                        II. OTHER SIGNIFICANT OIG ACTIVITIES

In addition to its operational audit, investigative, contract review, and healthcare inspection roles, the
OIG is responsible for a wide range of other significant activities that contribute to fulfilling the OIG's
overall mission objective. A description of these activities follows.

                                                    HOTLINE
The Hotline staff operates a toll-free telephone service 24 hours a day, 7 days a week or individuals can
send their concerns in writing (address on back cover). In addition, the OIG Hotline has a Homepage
(http://www.va.gov/oig/hotline/hotline.htm) on the Internet and E-mail access. Calls, letters, and E-
mail are received from employees, veterans, the general public, the Congress, GAO, and other Federal
agencies reporting issues of fraud, waste, and abuse. Due consideration is given to all complaints and
allegations received, with each addressed by OIG or other Departmental staff and a response provided
to the reporting individual.

1. HOTLINE CASES PROCESSED

During the period, the Hotline Section received 10,959 contacts, with 376 cases opened and referred,
and 313 cases closed, as follows:


                                             HOTLINE WORKLOAD
                   Total Contacts                                           10,959
                   Cases opened and referred*                                  376
                       OIG Audit                                                 1
                       OIG Investigations                                       10
                       OIG Hotline and Special Inquiries                        23
                       OIG Healthcare Inspections                               26
                       Other OIG                                                 2
                       VA Program Managers                                     324
                   Cases closed                                                313



       * Some cases referred to more than one office.




                                                                                                      2-1
2. FOUNDED ALLEGATIONS

Of the 313 cases closed during this period, 75 cases (24 percent) contained founded allegations. The
following graph illustrates the percentage of cases warranting corrective actions.


                                                 Unfounded Allegations
                                                 Founded Allegations


                                                                     24%




                                              76%




The majority of the issues associated with the founded allegations concerned management, veterans
benefits, employee conduct, property and personal gain, patient care, contract/procurement
irregularities, and time and attendance. The following table illustrates the number of complaints by
category for the founded allegations.



                                       Founded Hotline Issues By Category of Complaint




                   Management

               Veterans Benefits

             Employee Conduct

          Property/Personal Gain

                    Patient Care

           Contract/Procurement

           Time and Attendance

                                   0             5              10             15        20   25




2-2
As a result of these reviews, VHA managers imposed 29 administrative sanctions (e.g. counselings,
admonishments, reassignments, and terminations) against employees during this reporting period. A
total of $161,928 in potential recoveries was also identified. Following are examples of allegations that
were founded for each of the categories listed on the preceding table.

Management

•   A review found that a VAMC employee used the wrong social security number when admitting a
    patient, who later died at the VAMC. Because of the error, a living veteran’s compensation checks
    were erroneously stopped and his insurance company was billed for the deceased veteran’s care. As
    a result of the review, the living veteran’s compensation was reinstated, his insurance company was
    reimbursed and he was sent an apology. All records were corrected, and the employee was
    counseled.

Veterans Benefits

•   A review determined that a veteran failed to report an income change to the VA, resulting in his VA
    award continuing inappropriately. The VA wrote to the veteran giving him an opportunity to rebut
    the resulting overpayment of $57,930 before proceeding with corrective action.

•   Another review found that a claimant failed to report information relevant to his claim due to lack of
    awareness of requirements, resulting in an $11,249 overpayment. The amount was subsequently
    paid back.

Employee Conduct

•   A review found multiple instances of misconduct within a VAMC Police and Security Service. A
    police officer was given a 5-day suspension for using his master key to access medical center
    property with a female employee, and the female was issued a reprimand. Two police officers
    received 5-day suspensions for sleeping on duty. Another officer was counseled for allowing
    unauthorized personnel in the Police and Security office, and one officer was given a 5-day
    suspension for using E-mail to send personal messages.

•   As a result of another review, a Service chief was reprimanded for sponsoring subordinates as
    AMWAY distributors. Another employee was verbally counseled for using the E-mail system to
    solicit interest in a non-VA trip.

Property and Personal Gain

•   A review found that an employee used Government fax and telephone equipment for non-VA
    business on VA time. The employee was counseled.

•   Another review found that an employee made personal telephone calls over a period of several
    months. The employee was reprimanded and required to pay $218, which included a $50
    administrative charge.



                                                                                                     2-3
Patient Care

•   A review by our Office of Healthcare Inspections (OHI) found that VAMC staff did not attempt to
    resuscitate a veteran after his spouse found him unresponsive, although the patient was on “full
    code” status. OHI concluded that attempts at resuscitation would have been medically futile, but
    recommended that the Chief of Staff review the code status policy with staff to ensure patients’
    requests are appropriately acted on.

•   As a result of another review, a VAMC employee was admonished for failing to follow policy,
    which required he wear gloves while drawing a patient’s blood.

Contract/Procurement

•   A review found that a contract was executed without going through the proper contractual
    procedure. The contract was cancelled on completion of the prepaid term.

Time and Attendance

A review found that a supervisor allowed employees to work extra hours and reimbursed them the
following week. The supervisor pulled hours from future weeks to allow the employees to work the
extra hours. Guidance was issued to address the inappropriate use of unscheduled hours.

                      FORENSIC DOCUMENT LABORATORY
The OIG operates a nationwide forensic laboratory service for fraud detection, which can be utilized by
all elements of VA. The types of requests routinely submitted to the laboratory include handwriting
analysis, typewriting, inks, paper, photocopied documents, and suspected alteration of official
documents. During this reporting period, the forensic laboratory received 473 documents from various
non-OIG sources that required 1,816 laboratory examinations. The laboratory received 358 additional
pieces of evidence in 6 OIG criminal investigations, which required 956 laboratory examinations. There
were a total of 39 laboratory reports issued during the period covered by this report.

                                 LABORATORY CASES FOR THE PERIOD
                                       REQUESTER                    CASES
                                                                  COMPLETED
                           OIG Office of Investigations                 6
                           Regional Offices                            27
                           VA Security and Law Enforcement              1
                           VA Top Management                            5
                                           TOTAL                       39




2-4
The following are examples of the fraudulent activities that were involved and the laboratory work that
was completed:

•   The Board of Veterans Appeals (BVA) requested forensic document laboratory examinations
    related to a veteran’s military records to determine if they had been altered. In addition, the veteran
    may have committed perjury at a VA hearing about his military records. The laboratory
    examinations determined that a different type font design had been used to alter information
    contained in the military records.

•   BVA also requested laboratory examinations of another veteran’s medical records. The
    examinations determined that parts of the medical records had been altered with additional typed
    entries, with the same typewriter used to produce several fraudulent medical records.

•   Four requests were received from the VARO Manila, Philippines, for handwriting, fingerprint,
    paper, ink, photocopy, and typewriter laboratory examinations for four different cases to determine
    the eligibility of veterans or their widows. The documents consisted of military service and medical
    records, and fingerprint cards. Laboratory examinations of documents in two cases determined that
    the questioned documents were fraudulent. Fingerprint examinations determined that an individual
    attempted to fraudulently obtain the benefits of a widow who received VA benefits.

•   Our Office of Investigations received information that an individual had assumed the identity of a
    veteran, and that the individual was receiving the veteran’s benefits. Fingerprint examinations
    determined that the individual receiving VA benefits was the true veteran.

      REVIEW AND IMPACT OF LEGISLATION AND REGULATIONS
The OIG reviews existing and proposed legislation and regulations relating to Department programs
and operations. The OIG makes appropriate comments and recommendations concerning the impact of
the legislation and regulations on economy and efficiency in the administration of programs and
operations or the prevention and detection of fraud and abuse.

During this period, 68 legislative and 53 regulatory proposals were reviewed and commented on, as
appropriate.

Acquisition Reform and Its Impact on Our FSS Reviews

Approved legislation can and does affect OIG operations. Two Public Laws on federal procurement
reform could have denied us postaward access to contractors’ records - the Federal Acquisition
Streamlining Act of 1994 (FASA), P.L. 103-355, and the Federal Acquisition Reform Act of 1996, now
known as the Clinger-Cohen Act of 1996. In response to FASA and the Clinger-Cohen Act, the
General Services Administration (GSA) issued an interim rule in February 1996 on the acquisition of
commercial items, and a final rule on August 21, 1997.

The final rule addresses the commercial item acquisition provisions of FASA and the Clinger-Cohen Act
through reform of GSA’s Multiple Award Schedule (MAS) program. The final rule retains the most
favored customer MFC pricing objective and gives VA the flexibility to continue doing postaward

                                                                                                      2-5
audits of FSS contracts. The provisions in the final rule that resulted in the continuation of the MFC
pricing objective and provided the flexibility to modify the Examination of Records clause to allow for
postaward audit access to a contractor’s records represented a major victory for VA’s FSS contracting
program. The Department of Justice, VA officials, and the GSA Inspector General successfully argued
for the retention of the MFC pricing objective and postaward audit rights to protect the Government
and ultimately the taxpayer from paying inflated prices due to inaccurate or fraudulent pricing
disclosures on its contracts. Since October 1993, monetary recoveries associated with postaward
reviews of FSS contracts have amounted to about $85 million.

                              HAMMER AWARD RECIPIENT
On July 31, 1997, the VA Procurement Working Group received a Hammer Award from the Vice
President. The VA Procurement Working Group, which is led by the Office of Inspector General, was
developed and implemented to provide the Department with a new and fully coordinated approach to
requesting and reviewing contracts and contracting practices, and recovering contractor overcharges. In
addition to the Office of Inspector General, the Procurement Working Group consists of representatives
from the Office of Acquisition and Materiel Management and the Office of General Counsel.

As a result of this creative and unified approach, there has been enhanced customer satisfaction,
improved quality and timeliness of audit results, a dramatic increase in companies voluntarily disclosing
to VA that they have overcharged the Government and offering a refund, and a dramatic increase of
dollar recoveries to VA. In the 3 years since the establishment of the Procurement Working Group,
dollar recoveries for the Department exceeded $74 million.

The Procurement Working Group demonstrates that when employees from different parts of the VA
organization work together, as one-VA and toward a common goal, both veterans and taxpayers
benefit. In addition, the Government receives fair and reasonable prices for goods and services, which
means additional dollars to treat more veterans.

                        OIG MANAGEMENT PRESENTATIONS
Presentation at “Transparency in Government” Conference in Argentina

Our Assistant Inspector General for Healthcare Inspections, sponsored by the Department of State,
gave a presentation and provided consultations to officials in Argentina concerned with establishing
effective administrative procedures to combat corruption. In his presentation 'Vigilance of Public Health
Care Systems,' in Buenos Aires, he discussed VA’s health care system and the various methods of
providing the necessary external scrutiny, including the essential role of the IG, to more evidently assure
that public funds are used in an economical, efficient and effective manner. He also met with many
individuals and groups, as convened by the American Embassy and the World Bank, on investigative,
audit and inspection mechanisms designed to identify and eliminate fraud and abuse in public health care
systems.




2-6
Presentation at Midwestern Intergovernmental Audit Forum

VA OIG staff participated in a Midwestern Intergovernmental Audit Forum held in Milwaukee,
Wisconsin in May 1997. The Assistant Inspector General for Auditing was a featured speaker, and
provided a presentation on performance auditing in the Federal environment.

Presentation at Association of Government Accountants (AGA) Conferences

The Deputy Assistant Inspector General for Auditing and the Director, Financial Statement Audit
Division gave a presentation on “Innovative Auditing on VA’s Financial Statement Audits” at the June
1997 AGA Professional Development Conference.             The presentation discussed a number of
computerized audit techniques that VA OIG developed and uses in conducting its program and financial
statement audits. These include extensive use of Computer Assisted Audit Techniques (CAATS) and
remote computer access that enable the OIG to (i) better serve audit clients in today’s environment of
increasingly complex, computerized operations, (ii) conduct audits more efficiently in today’s
environment of austere budgets and continuing downsizing, and (iii) identify significant internal control
weaknesses and erroneous transactions.

The Director of our Kansas City Operations Division conducted a seminar on “Cooperation and
Conflict with the Audit Client,” at the AGA Midwestern Region Financial Management workshop in
April 1997. A similar seminar was provided at the AGA Professional Development Conference held in
Topeka, Kansas in May 1997.

Presentation at Information Security Conference

VA OIG staff participated in the Information Security Officers’ Conference held in Nashville, TN in
August 1997, with a presentation by one of our Office of Audit project managers on the VA OIG’s
overview and perspective concerning information security.

Participation in Financial Statement Audit Task Force

During this reporting period, OIG Financial Statement Audit (FSA) staff continued its participation in
the "Governmentwide Financial Statement Audit Task Force" subgroup on credit reform accounting and
auditing issues. The subgroup consists of GAO, OMB, CFO and OIG participants, with the focus on
key accounting and auditing issues facing the audit of the FY 1997 Government-wide financial
statements. FSA staff also continued their participation in the Federal Audit Executive Council financial
statement audits subgroup and in the President’s Council on Integrity and Efficiency financial statement
audit manual task force. Both working groups are important in sharing information on areas of
common interest, with the objective of improving the Federal financial statement audit process.

Presentation at FSS Industry Conference

OIG Contract Review staff participated in the VA National Acquisition Center’s (NAC) Industry
Conference in April 1997 by giving a presentation related to preaward reviews. The conference was
attended by representatives of the NAC, DOD, pharmaceutical manufacturers, and medical/surgical
suppliers.


                                                                                                    2-7
Participation in FSS Pharmaceutical Pre-proposal Conference

OIG Contract Review staff participated in the May 1997 Pre-proposal Conference attended by
pharmaceutical industry representatives. The OIG staff were part of a VA panel that responded to
questions from industry during the conference.

Presentation of FSS Preaward Review Training

OIG Contract Review staff developed and conducted a 3-day training session in May 1997 on FSS
preaward reviews, which was attended by NAC contracting officers and OIG auditors.

Federal Audit Executive Council

During the year, our Assistant Inspector General for Auditing was elected Vice-Chairperson of the
Federal Audit Executive Council (FAEC). The purpose of the FAEC is to discuss and coordinate on
issues affecting the Federal audit community in general, and, in particular, matters affecting audit policy
and operations of common interest to FAEC members.

                         OIG CONGRESSIONAL TESTIMONY
In April 1997, the Deputy Inspector General testified before the House Veterans’ Affairs Oversight and
Investigations Subcommittee at a hearing on sexual harassment allegations against senior VA managers.
The testimony addressed hotline inquiries received by the OIG over the past five years. In July 1997,
the Deputy Inspector General again testified before the Subcommittee at a follow-up hearing on sexual
harassment in VA. The testimony addressed OIG involvement in corrective initiatives addressing the
issue of sexual harassment in the VA workplace.

In May 1997, the Deputy Inspector General testified before the Senate Committee on Veterans’ Affairs
at a hearing on VA’s policies and practices protecting VA employees from sexual harassment and the
implementation of those policies. The testimony addressed the history and results of OIG investigations
into cases of suspected sexual harassment by VA employees.

            FREEDOM OF INFORMATION/PRIVACY ACT/OTHER
                      DISCLOSURE ACTIVITIES
During this reporting period, we processed 121 requests under the Freedom of Information and Privacy
Acts and released 250 audit, investigative and other OIG reports. In four instances we had no records.
We totally denied one request under the appropriate exemptions of the Acts. Information was partially
withheld in 88 requests because release would have constituted an unwarranted invasion of personal
privacy, interfered with enforcement proceedings, disclosed the identity of confidential sources,
disclosed internal Department matters, or was specifically exempted from disclosure by statute.




2-8
         OBTAINING REQUIRED INFORMATION OR ASSISTANCE
Sections 5(a)(5) and 6(b)(2) of the Inspector General Act of 1978 require the Inspector General to
report instances where access to records or assistance requested was unreasonably refused, thus
hindering the ability to conduct audits or investigations. During this 6-month period, there were no
reportable instances under these sections of the Act.

Under P.L. 95-452, the IG has authority “ . . . to require by subpoena the production of all information,
documents, reports, answers, records, accounts, papers, and other data and documentary evidence
necessary . . ..” The use of IG subpoena authority has proven valuable in our efforts, especially in cases
dealing with third parties. During this reporting period, 20 subpoenas were issued in conjunction with
various OIG investigations and audits.




                                                                                                     2-9
                             III. FOLLOWUP ON OIG REPORTS

                              OIG ROLE AND RESPONSIBILITY

The OIG is responsible for maintaining the Department's centralized, computerized followup system that
provides for oversight, monitoring, and tracking of all OIG recommendations through both resolution and
implementation. Resolution and implementation actions are monitored to ensure that disagreements between
OIG and management are resolved as promptly as possible and that corrective actions are implemented as
agreed upon by management officials. Disagreements unable to be resolved between OIG and management
are decided by the Deputy Secretary, VA's audit followup official.

Management officials are required to provide the OIG with documentation showing the completion of
corrective actions, including reporting of collection actions until the amounts due VA are either collected or
written off. OIG staff evaluate information submitted by management officials to assess both the adequacy
and timeliness of actions and to request periodic updates on an ongoing basis. As of September 30, 1997, the
Department had no unresolved internal OIG recommendation and 342 unimplemented internal OIG
recommendations.

                       RESOLUTION OF OIG RECOMMENDATIONS

The Inspector General Act Amendments of 1988 require identification of all significant management
decisions with which the Inspector General is in disagreement and all significant and other recommendations
unresolved for over 6 months (management decisions not made). We had no Inspector General
disagreements on significant management decisions and there were no internal audit recommendations
unresolved as of September 30, 1997. External contract report recommendations unresolved for over 6
months are included in Appendix C.

Following on the next pages are tables which provide a summary of the number of OIG reports with potential
monetary benefits that were unresolved at the beginning of the period, the number of reports issued and
resolved during the period with potential monetary benefits, and the number of reports that remained
unresolved at the end of the period.




                                                                                                         3-1
             SUMMARY OF UNRESOLVED AND RESOLVED OIG AUDITS

As required by the IG Act Amendments, Tables 1 through 5 below provide statistical summaries of
unresolved and resolved audit reports for the period April 1, 1997 - September 30, 1997. The dollar
figures used throughout this report are based on the definitions included in the IG Act Amendments of
1988. The figures are current as of September 30, 1997, and may reflect changes from the data in the
individual reports due to OIG validation to ensure compliance with the IG Act Amendments definitions.

TABLE 1 - SUMMARY OF UNRESOLVED AUDIT REPORTS

Table 1 provides a summary of all unresolved audit reports and the length of time they have been unresolved.

                     MONTHS              TYPE AUDIT              NUMBER         TOTAL

                                         Internal Audit              0
                       Over
                                                                                   21
                     6 Months
                                         Contract Audit             21

                                         Internal Audit              0
                     Less Than
                                                                                   33
                     6 Months
                                         Contract Audit             33

                                                          TOTAL                    54


Tables 2 through 5 show a total of 45 reports that were unresolved as of September 30, 1997 - no
internal audit reports and 45 contract (postaward and preaward) audit reports. This number differs
from the 54 reports shown above because the tables include only reports with monetary benefits as
required by the IG Act Amendments.

Tables 2 through 5 also provide the reports resolved during the period with the OIG estimates of
disallowed costs and funds to be put to better use, including those in which management agreed to
implement OIG recommendations and those in which management did not agree to implement OIG
recommendations. The Assistant Secretary for Management maintains data on the agreed upon reports
and Management estimates of disallowed costs and funds to be put to better use in order to comply with
the reporting requirements for the Secretary's Management Report to Congress, required by the IG Act
Amendments.




3-2
TABLE 2 - RESOLUTION STATUS OF POSTAWARD CONTRACT AUDIT REPORTS

Table 2 summarizes postaward contract audit reports, the dollar value of questioned costs, and the costs
disallowed and allowed.

                    RESOLUTION STATUS OF POSTAWARD                                     NUMBER OF              QUESTIONED
                        CONTRACT AUDIT REPORTS                                          REPORTS                   COSTS
                                                                                                               (In Millions)
           No management decision by 3/31/97                                                   4                 $    6.0
           Issued during reporting period                                                      6                 $ 26.8
                      Total Inventory This Period                                             10                 $ 32.8
           Management decision during reporting period
              Disallowed costs                                                                 6                 $ 26.2
              Allowed costs                                                                    1                 $    2.1
                     Total Management Decisions This Period                                     71               $ 28.3
                     Total Carried Over to Next Period                                          32               $    4.5

1
    Of the 7 reports resolved, the contracting officers agreed with the recommended disallowed costs for 6 reports.
2
    Of the 3 reports carried over, 1 was unresolved for over 6 months as of 9/30/97, with a dollar value of $1.3 million.

Definitions:

     Questioned Costs are contractor or grantee costs OIG recommends be disallowed by the
contracting officer, grant official, or other management official. Costs normally result from a finding
that expenditures were not made in accordance with applicable laws, regulations, contracts, grants, or
other agreements; or a finding that the expenditure of funds for the intended purpose was unnecessary
or unreasonable.

    Disallowed Costs are costs that contracting officers, grant officials, or management officials have
determined should not be charged to the Government and which will be pursued for recovery.
Disallowed costs do not necessarily represent the actual amount of money that will be recovered by the
Government due to unsuccessful collection actions, appeal decisions, or other similar actions.

   Allowed Costs are amounts on which contracting officers, grant officials, or management officials
have determined that VA will not pursue recovery of funds.




                                                                                                                               3-3
TABLE 3 - RESOLUTION STATUS OF INTERNAL AUDIT REPORTS WITH QUESTIONED COSTS

Table 3 summarizes internal audit reports, the dollar value of questioned costs, and the costs disallowed and
allowed.

               RESOLUTION STATUS OF INTERNAL                       NUMBER OF         QUESTIONED
                      AUDIT REPORTS                                 REPORTS              COSTS
                                                                                      (In Millions)
      No management decision by 3/31/97                                  0             $ 0
      Issued during reporting period                                     3             $ 1.2
               Total Inventory This Period                               3             $ 1.2
      Management decisions during reporting period
        Disallowed costs                                                 3             $ 1.2
        Allowed costs                                                    0             $ 0
               Total Management Decisions This Period                    3             $ 1.2
               Total Carried Over to Next Period                         0                0



Definitions:

Ÿ Questioned Costs for Internal Audit Reports are amounts paid by VA and unbilled amounts for
which the OIG recommends VA pursue collection, including Government property, services or benefits
provided to ineligible recipients; recommended collections of money inadvertently or erroneously paid
out; and recommended collections or offsets for overcharges or ineligible costs claimed.

Ÿ Disallowed Costs are costs that management officials have determined should not be charged to the
Government or on which management has agreed that VA should bill for property, services, benefits
provided, monies erroneously paid out, overcharges, etc. Disallowed costs do not necessarily represent
the actual amount of money that will be recovered by the Government due to unsuccessful collection
actions, appeal decisions, or other similar actions.

Ÿ Allowed Costs are amounts on which management officials have determined that VA will not pursue
recovery of funds.




3-4
TABLE 4 - RESOLUTION STATUS OF INTERNAL AUDIT REPORTS WITH RECOMMENDED
          FUNDS TO BE PUT TO BETTER USE BY MANAGEMENT

Table 4 summarizes internal audit reports with Recommended Funds to be Put to Better Use.

        RESOLUTION STATUS OF INTERNAL AUDIT                 NUMBER OF        RECOMMENDED
                     REPORTS                                 REPORTS        FUNDS TO BE PUT
                                                                            TO BETTER USE (In
                                                                                 Millions)
    No management decision by 3/31/97                             0              $    0
    Issued during reporting period                                5              $   49.4
             Total Inventory This Period                          5              $   49.4
    Management decisions during reporting period
      Agreed to by management                                     5              $   49.4
      Not agreed to by management                                 0              $    0
             Total Management Decisions This Period               5              $   49.4
             Total Carried Over to Next Period                    0              $    0


Definitions:

Ÿ Recommended Better Use of Funds Associated with Internal Audit Reports represents a
quantification of funds that could be used more efficiently if management took actions to complete OIG
recommendations pertaining to deobligation of funds, costs not incurred by implementing recommended
improvements, and other savings specifically identified in audit reports.

Ÿ Dollar Value of Recommendations Agreed to by Management provides the OIG estimate of funds
that will be used more efficiently based on management's agreement to implement actions.

Ÿ Dollar Value of Recommendations Not Agreed to by Management is the amount associated with
recommendations that management decided will not be implemented.




                                                                                                 3-5
TABLE 5 - RESOLUTION STATUS OF PREAWARD CONTRACT AUDIT REPORTS WITH
          RECOMMENDED FUNDS TO BE PUT TO BETTER USE BY MANAGEMENT

Table 5 summarizes preaward contract audit reports with Recommended Funds to be Put to Better Use
by management, and the dollar value of recommendations that were agreed to and not agreed to by
management.

      RESOLUTION STATUS OF PREAWARD CONTRACT                                   NUMBER OF             RECOMMENDED
                   AUDIT REPORTS                                                REPORTS             FUNDS TO BE PUT
                                                                                                    TO BETTER USE (In
                                                                                                         Millions)
     No management decision by 3/31/97                                                371                    $ 52.3
     Issued during reporting period                                                   25                     $ 72.8
               Total Inventory This Period                                            62                     $125.1
     Management decisions during reporting period
        Agreed to by management                                                       13                      $ 8.7
        Not agreed to by management                                                    7                     $13.6
               Total Management Decisions This Period                                 202                    $22.3
               Total Carried Over to Next Period                                      423                    $102.8

1
 The opening inventory does not match the closing inventory as of 3/31/97. One report was cancelled, resulting in a decrease to the
number of reports and the associated dollars.

2
 Of the 20 reports with recommended funds to be put to better use, management fully agreed with the recommended cost reductions for
7 reports, partially agreed with reductions for 6 reports, and did not agree with the cost reductions on 7 reports.
3
 Of the 42 reports carried over, a management decision had not been made for over 6 months on 19 reports with a dollar value of $31.2
million.

Definitions:
Ÿ Recommended Better Use of Funds Associated with Preaward Reviews of contracts is the sum of the
questioned and unsupported costs identified in preaward contract audit reports which the OIG recommends be
disallowed in negotiations unless additional evidence supporting the costs is provided. Questioned costs normally
result from findings such as a failure to comply with regulations or contract requirements, mathematical errors,
duplication of costs, proposal of excessive rates, or differences in accounting methodology. Unsupported costs
result from a finding that inadequate documentation exists to enable the auditor to make a determination
concerning allowability of costs proposed.

Ÿ Dollar Value of Recommendations Agreed to by Management is the amount contracting officers disallowed
in negotiations, including the amount associated with contracts that were not awarded as a result of audits.

Ÿ Dollar Value of Recommendations Not Agreed to by Management is the amount of questioned and/or
unsupported costs that contracting officers decided to allow.




3-6
           IV VA AND OIG MISSION, ORGANIZATION AND RESOURCES

                                VA was established as an independent agency by Executive Order 5398
       VA Establishment         on July 21, 1930, in accordance with Public Law 71-536, Activities for
                                War Veterans, Consolidation and Coordination (Act of July 30, 1930).
                                This Act authorized the President to consolidate and coordinate Federal
agencies especially created for or concerned with the administration of laws providing benefits to
veterans. Under this Act, the Veterans' Bureau, the Bureau of Pensions, and the National Home for
Disabled Volunteer Soldiers were consolidated in VA. Effective March 15, 1989, Public Law 100-527
elevated VA to Cabinet-level status as the Department of Veterans Affairs.

                         The Department's budget authority for FY 1997 was $40.8 billion. Full-time
     VA Resources        equivalent (FTE) employment for the year was 211,507. VA operates medical
                         facilities or regional offices in every State, the District of Columbia, Puerto Rico,
                         Guam, and the Philippines.

                                             VA's mission is to serve America's veterans and their families
        VA Mission and Organization          as their principal advocate in ensuring that they receive the
                                             care, support, and recognition they have earned in service to
                                             the Nation. The Department includes 3 administrations that
provide for the delivery of services and benefits; 5 assistant secretaries and 13 deputy assistant
secretaries who advise and support the Secretary and the administrations; and 6 Department staff offices
that provide specific assistance to the Secretary. Highlights of the services and benefits provided by the
3 administrations follow.

VETERANS BENEFITS ADMINISTRATION (VBA)

To provide benefits, VBA maintains 58 regional offices and 2 insurance centers.

Compensation for service-connected disabilities and death
  2.6 million veterans and survivors receive continuing benefits valued at about $16.3 billion.

Pensions for income maintenance of veterans and survivors
  .7 million veterans and survivors receive continuing benefits valued at about $3.2 billion.

Education and training assistance
  Approximately 485,000 trainees receive education and training assistance payments valued at about $1.4
  billion.

Housing and other credit assistance
  In FY 1997, VA granted an estimated 260,000 home loans valued at an estimated $26.1 billion.

Veterans' and servicemens' life insurance
  The 5 million policies in force in VA life insurance programs have a total face value of about $560.4
  billion.


                                                                                                     4-1
VETERANS HEALTH ADMINISTRATION (VHA)

To provide medical care, VHA maintains 173 hospitals, 473 outpatient clinics (includes independent, satellite,
community-based, and rural outreach clinics), 40 domiciliaries, and 131 nursing home units.

Hospitals, medical, dental, and outpatient care                        LOCATIONS                 PATIENTS
  The preliminary FY 1997 data on average daily
  census for inpatient VA and non-VA-provided care           VA Hospitals                            23,571
  was 66,357. The locations of the patients are shown        VA Nursing Home Care Units              18,750
  in the table.                                              and Domiciliaries

                                                             Non-VA Facilities                       24,036
   An estimated 31 million outpatient visits were
                                                                            TOTAL                    66,357
   provided in FY 1997.

Medical and prosthetic research
  The research appropriation for FY 1997 was $262 million.

NATIONAL CEMETERY SYSTEM (NCS)

To provide interment services, the NCS operates 115 cemeteries and 34 other miscellaneous sites.

There were an estimated 73,200 interments in national cemeteries in FY 1997 and an estimated 326,000
headstones or markers were provided.

                                      VA's OIG was administratively established on January 1, 1978, to
       VA OIG Establishment           consolidate audit, investigation, and related operations into a cohesive,
                                      independent organization. In October 1978, the Inspector General Act
                                      of 1978 (P.L. 95-452) was enacted and established a statutory Inspector
General (IG) in VA.

                           The Inspector General Act of 1978 states that the IG is responsible for: (1)
    Role and Authority     conducting and supervising audits and investigations, (2) recommending policies
                           designed to promote economy and efficiency in the administration of, and to
                           prevent and detect fraud and abuse in, the programs and operations of the
Department, and (3) keeping the Secretary and the Congress fully informed about problems and deficiencies
in VA programs and operations and the need for corrective action.

The Inspector General Act Amendments of 1988 were enacted in October 1988. The major effect of these
amendments was to provide the OIG with a separate appropriation account and a revised and expanded
procedure for reporting semiannual workload to Congress.

The IG has authority to inquire into all VA programs and activities as well as the related activities of persons
or parties performing under grants, contracts, or other agreements. The inquiries may be in the form of
audits, investigations, contract reviews, inspections, or other appropriate actions. The responsibility for
program integrity rests with VA administration heads and staff offices.



4-2
                   Fiscal Year 1997 funding for OIG operations was $32.5 million, with $30.9 million from
     Funding       appropriations and $1.6 million through reimbursable agreements. Approximately
                   82 percent of the total funding was for personnel salaries and benefits, 5 percent for
                   travel, and 13 percent for all other operating expenses such as contractual services, rents,
supplies, and equipment.

                     The OIG average employment level for FY 1997 was 339. Employees on board as of
      Staffing       September 30, 1997, were distributed as follows:


                     OFFICE                                               PERSONS
                                                                         EMPLOYED
                     Inspector General's Office                                 2
                     Office of Counselor to IG                                  4
                     Office of Investigations                                 70
                     Office of Audit                                         177
                     Office of Departmental Reviews and                       57
                     Management Support
                     Office of Healthcare Inspections                         19
                                        TOTAL                                329


The OIG organization chart is presented on the next page.




                                                                                                      4-3
                                                                           DEPARTMENT OF VETERANS AFFAIRS




4-4
                                                                             OFFICE OF INSPECTOR GENERAL

                                                                                                Inspector General
                                                 Executive Assistant                            ______________                           Counselor to Inspector General
                                                                                                     Deputy



             Assistant Inspector General
                                                                       Assistant Inspector General                  Assistant Inspector General                           Assistant Inspector General
             Departmental Reviews and
                                                                              Investigations                                  Auditing                                      Healthcare Inspections
               Management Support
                                                                         __________________                            _________________                                     _________________
                _________________
                                                                                  Deputy                                       Deputy                                                Deputy
                        Deputy
                                                                                                                                                            Medical Assessment
                                                                                                                                                                    and
                              Policy, Followup                                                                                                                 Consultation
        Hotline and                                                                       Analysis and
                              and Operational
      Special Inquiries                                                                    Oversight
                                  Support                                                                                                                        Patient Care                Health Systems
                                                                                                                                                               Inspections and                Development
                                                                                                                                                                  Evaluation
                                                                                            Forensic
      Contract Review            Resources
                                                                                           Documents
      and Evaluation            Management                                                                                                          Operations Divisions
                                                                                           Laboratory
                                                                                                                                                    Central Office
                                                                                                                          Financial Audits
                                                                                                                                                    Bedford
                                                                                                                          and Assistance
                                                                                                                                                    Atlanta
                                                                                                                                                    Chicago
                                                                 Benefits Fraud            Health Care                                              Kansas City
                                                                                             Fraud                       Management and             Seattle
                                                                                                                           Professional
                                                                                                                          Development
                                                                                                                                                    Operations Residences
                                                                                                                                                    Philadelphia
                                                                 Procurement                 Medical                                                Hines
                                                                                                                        Technical Support
                                                                                                                             Austin                 Dallas
                                                                                                                                                    Los Angeles

                                             Field Offices
                                                                                                                            Policy and
                                             Northeast
                                                                                                                             Planning
                                             Southeast
                                             Central
                                             Western

                                                                                                                            Financial
                                                                                                                            Statement
                                           Resident Agencies
                                     Atlanta       Boston
                                     Columbia      Dallas
                                                                                                                      Financial Residences
                                     Houston       Kansas City
                                                                                                                      Austin
                                     New Orleans Newark
                                                                                                                      Dallas
                                     Phoenix        San Francisco
                                                                                                                      Los Angeles
                                     Washington W. Palm Beach
                                                    APPENDIX A

                                   DEPARTMENT OF VETERANS AFFAIRS
                                     OFFICE OF INSPECTOR GENERAL
                                         REVIEWS BY OIG STAFF

  Report                                                                  Funds Recommended
 Number/                                                                     For Better Use   Questioned
Issue Date                        Report Title                              OIG    Management   Costs

INTERNAL AUDITS
7AFG10073     Management Letter – Fiscal Year 1996 Selected Accounting
4/4/97        Operations and Systems at Austin Finance Center

7R1G10072     Management Letter – Fiscal Year 1996 Financial Statements
4/11/97       – VA Life Insurance Programs

7R5B13074     Audit of Appointment and Supervision of Fiduciaries
5/1/97

7AFG10080     Management Letter – Tests of Selected Veterans Benefits
5/9/97        Programs Accounting Functions Performed at VA Central
              Office

7AFG10084     Review of Electronic Data Processing Controls in the
5/12/97       Financial Management System Accounts Receivable and
              Fixed Asset Subsystems

7AFG10085     Management Letter – Management Oversight of Property,
5/12/97       Plant, and Equipment Financial Information

7AFG10086     Management Letter – Accuracy of Non-Expendable
5/12/97       Equipment Financial

7AFG10087     Management Letter – Accuracy of Real Property Financial
5/12/97       Information

7D2G07062     Audit of Security Controls at the Hines Benefits Delivery
5/13/97       Center

7R3A05099     Audit of Internal Controls Over the Fee-Basis Program         $1,800,000   *
6/20/97




* Management estimate will be provided after completion of planned actions, anticipated by October 1998.




                                                                                                           A-1
 Report                                                                     Funds Recommended
 Number/                                                                       For Better Use   Questioned
Issue Date                       Report Title                                 OIG    Management   Costs

7AFG10102    Management Letter - Tests of Selected VA Housing Credit
6/20/97      Assistance Accounting Functions Performed at VA Central
             Office

7R5B13129    Completeness of Data in the Veterans Benefits
9/15/97      Administration's Fiduciary Beneficiary System

7R3A01140    Audit of the Pathology and Laboratory Medicine Service           $5,202,562   $5,202,562
9/30/97      (PLMS) Mobile Laboratory Initiative

SPECIAL INQUIRY

7PRB08076    Possible Violation of Criminal Statutes, Federal Acquisition
5/7/97       Regulations, and Ethical Conduct Standards

7PRF03095    Alleged Mismanagement in the Health Services Research and                                  $3,669
6/19/97      Development Field Program and the Compensation and
             Pension Unit at the VA Puget Sound Health Care System
             Seattle, WA

7PRA99100    Alleged Improper Personnel Action, VA Medical Center
6/24/97      Washington, DC

7PRB18103    Alleged Misconduct and Personnel Irregularities, VA
7/2/97       Regional Office Baltimore, MD

7PRA19104    Alleged Mismanagement of Resources, Improper Personnel
7/2/97       Practices, and Misconduct, VA Medical Center Tuscaloosa,
             AL

7PRA11106    Alleged Personnel Irregularities, VA Medical Center                                        76,382
7/3/97       Cleveland, OH

7PRA19125    Alleged Mismanagement, Misconduct, and Personnel
9/4/97       Irregularities, VA Medical Center Bronx, NY

7PRG03137    Alleged Preferential Treatment by a Veterans Integrated
9/23/97      Service Network Official, Kansas City, MO




A-2
 Report                                                                     Funds Recommended
 Number/                                                                       For Better Use   Questioned
Issue Date                       Report Title                                 OIG    Management   Costs

HEALTHCARE INSPECTIONS

7HIA28077    Assessment of the Veterans Health Administration's Status in
4/22/97      Providing Mammography Examinations

7HIA28082    Inspection of Alleged Substandard Medical Care, Department
5/6/97       of Veterans Affairs Northern California Health Care System,
             Oakland and Martinez Outpatient Clinics

7HIA28091    Inspection of Alleged Refusal to Operate on a Woman
5/19/97      Veteran Department of Veterans Affairs Medical Center
             Philadelphia, PA

7HIA28101    Inspection of Alleged Poor Quality of Care and Disregard of
6/19/97      Patient’s Advance Directive for Life-Saving Measures at the
             Department of Veterans Affairs Puget Sound Health Care
             System Seattle, WA

7HIA28108    The Impact of Downsizing Inpatient Substance Abuse
7/8/97       Rehabilitation Programs on Homeless Veterans and Other
             Frequent Users

7HIF03111    Quality Performance Assistance Review, Department of
8/11/97      Veterans Affairs Medical Center Manchester, NH

7HIA28115    Oversight Review of the Veterans Health Administration's
8/14/97      External Peer Review Program

7HIA28122    Inspection of Alleged Misrepresentation of Medical
8/28/97      Credentials at a Department of Veterans Affairs Medical
             Center

7HIA07139    Inspection of Alleged Inadequate Care, and Nursing
9/17/97      Incompetence on the Nursing Home Care Unit, VAMC
             Bronx, NY

7HIA28144    Inspection of Selected Clinical Aspects of the Spinal Cord
9/25/97      Injury Unit at the Department of Veterans Affairs Medical
             Center Hampton, VA




                                                                                                      A-3
 Report                                                                      Funds Recommended
 Number/                                                                        For Better Use   Questioned
Issue Date                       Report Title                                  OIG    Management   Costs

CONTRACT REVIEWS
7PEE02075     Review of Glaxo Wellcome Inc.’s Implementation of Section                     *               $132,109
4/23/97       603 Drug Pricing Provisions of Public Law 102-585 Under
              Federal Supply Schedule Contract Number V797p-5783m

7PEE09078     Audit of Equitable Adjustment Claim Submitted by Joint             $56,158
4/30/97       Venture/Gardner Machinery Corporation & R. W. Martin &
              Sons, Inc, Contract No. V797p-6500a, Order No. 93-MC-
              64189

7PEE12081     Preaward Review of Federal Supply Schedule Proposal               1,755,575
5/6/97        Submitted by Johnson & Johnson Healthcare Systems, Inc.,
              Codman Division, Piscataway, NJ

7PEE02083     Postaward Review of Federal Supply Schedule Contract
5/8/97        V797p-3142k Awarded to 3M Health Care (Medical/Surgical
              Products) St. Paul, MN

7PEE12088     Preaward Review of Federal Supply Schedule Proposal               4,570,800
5/20/97       Submitted by Johnson and Johnson Health Care Systems, Inc.
              Ethicon Inc., Piscataway, NJ

7PEE02090     Review of Federal Supply Schedule Proposal (Solicitation No.
5/27/97       M5-Q53-97) Bristol-Myers Squibb Company, ConvaTec,
              Princeton, NJ

7PEE02092     Preaward Review of Federal Supply Schedule Proposal
6/6/97        Submitted by Johnson & Johnson Healthcare Systems, Inc.,
              Ethicon Endo Surgery, Inc., Piscataway, NJ

7PEE13097     Federal Supply Schedule (FSS) Contract V797p-5266n,                                            497,089
6/12/97       Awarded to Idexx Laboratories, Inc., Westbrook, ME

7PEE02093     Review of Federal Supply Schedule Proposal (Solicitation No.       964,241
6/13/97       M5-Q53-97) Ecolab Inc., St. Paul, MN

7PEE02094     Preaward Review of Federal Supply Schedule Proposal              10,806,808
7/11/97       Submitted by Johnson & Johnson Health Care Systems Inc.,
              Johnson and Johnson Medical Inc., Piscataway, NJ

* Management estimates are not applicable to contract reviews. Cost avoidances and amounts due VA resulting from
these reviews are determined when the OIG receives the contracting officer’s decision on the report recommendations.




A-4
 Report                                                                     Funds Recommended
 Number/                                                                       For Better Use   Questioned
Issue Date                      Report Title                                  OIG    Management   Costs

7PEE12107    Review of Federal Supply Schedule Proposal (Solicitation         $5,918,605
7/24/97      Number M3-Q3-92) Johnson and Johnson Healthcare
             Systems Inc., Cordis Corporation and J&J Interventional
             Systems, Piscataway, NJ

7PEE02126    Settlement Agreement – Postaward Review of Olympus                                    $22,800,000
8/7/97       America, Inc., FSS Contract No. V797p-3278j

7PEE02109    Review of Pharmacia & Upjohn's Voluntary Disclosure of                                  2,500,000
8/19/97      Pricing Violations Under Federal Supply Schedule Contract
             Numbers V797p-5640m, V797p-5566m, V797p-5562m, and
             V797p-3702j

7PEE02116    Review of Federal Supply Schedule Proposal (Solicitation
8/21/97      Number M5-Q50-97), Pfizer Incorporated, U.S.
             Pharmaceuticals Group, New York, NY

7PEE02123    Review of Federal Supply Schedule Proposal (Solicitation          1,919,827
9/3/97       Number M5-Q50-97), Pharmacia & Upjohn, Kalamazoo, MI

7PEE02119    Review of Sunrise Medical HHG Inc.’s (Formerly Known as                                  656,316
9/4/97       Guardian Products, Inc.) Voluntary Disclosure of Pricing
             Violations Under Federal Supply Schedule Contract Numbers
             V797p-3485j, V797p-3567j, and V797p-3122k

7PEE02127    Review of Federal Supply Schedule Proposal (Solicitation No.      5,484,450
9/4/97       M5-Q50-97) Wyeth – Ayerst Laboratories, Philadelphia, PA

7PEE02120    Review of Federal Supply Schedule Proposal (Solicitation No.
9/5/97       M5-Q50-97) Sanofi Pharmaceuticals, Incorporated, New
             York, NY

7PEE02121    Review of Federal Supply Schedule Proposal (Solicitation
9/8/97       Number M5-Q50-97), Astra Merck Inc., Wayne, PA

7PEE02124    Review of Federal Supply Schedule Proposal (Solicitation No.        91,550
9/8/97       M5-Q50-97) Amgen, Inc., Thousand Oaks, CA




                                                                                                        A-5
 Report                                                                     Funds Recommended
 Number/                                                                       For Better Use   Questioned
Issue Date                      Report Title                                  OIG    Management   Costs

7PEE02132    Review of Federal Supply Schedule Proposal (Solicitation No.      $733,529
9/16/97      M5-Q50-97) Dupont Merck Pharmaceutical Co.,
             Wilmington, DE

7PEE02134    Review of Federal Supply Schedule Proposal (Solicitation          3,800,590
9/17/97      Number M5-Q50-97), Schein Pharmaceutical Inc., Florham
             Park, NJ

7PEE02136    Review of Federal Supply Schedule Proposal (Solicitation          2,791,444
9/17/97      Number M5-Q50-97), Rhone-Poulenc Rorer, Inc.,
             Collegeville, PA

7PEE02128    Review of Federal Supply Schedule Proposal (Solicitation No.
9/22/97      M5-Q50-97) Merck and Co., Inc., West Point, PA

7PEE02130    Review of Federal Supply Schedule Proposal (Solicitation          3,580,134
9/23/97      Number M5-Q50-97), Bayer Corporation Pharmaceutical
             Division, West Haven, CT

7PEE02143    Review of Federal Supply Schedule Proposal (Solicitation            15,170
9/23/97      Number M5-Q50-97), Bayer Corporation Biological
             Products, West Haven, CT

7PEE02138    Review of Federal Supply Schedule Proposal (Solicitation           522,415
9/24/97      Number M5-Q50-97), Janssen Pharmaceutical Inc.,
             Piscataway, NJ

7PEE02141    Review of Federal Supply Schedule Proposal (Solicitation No.        69,091
9/24/97      M5-Q50-97) Roche Laboratories, Inc., Nutley, NJ

7PEE02142    Review of Federal Supply Schedule Proposal (Solicitation          8,624,775
9/24/97      Number M5-Q50-97), Parke-Davis Division of Warner-
             Lambert Co., Morris Plains, NJ

7PEE02147    Review of Federal Supply Schedule Proposal (Solicitation No.      2,525,457
9/30/97      M5-Q50-97) G. D. Searle and Co., Managed Care Contracts,
             Chicago, IL

7PEE02148    Review of Federal Supply Schedule Proposal (Solicitation No.
9/30/97      M5-Q50-97) Tap Pharmaceuticals, Deerfield, IL

7PEE02149    Settlement Agreement – Review of Amgen Inc.                                             $195,654
9/30/97      Implementation of Section 603, Drug Pricing Provisions of
             Public Law 102-585 Under Federal Supply Schedule Contract
             Number V797p-5077n




A-6
  Report                                                                      Funds Recommended
 Number/                                                                         For Better Use   Questioned
Issue Date                         Report Title                                 OIG    Management   Costs

OTHER REVIEWS
7AFG01035     Duplicate Payments                                                                                    $1,082,070
4/24/97

7R1B01089     Review of Veterans Benefits Administration's Procedures to        $29,062,950       $29,062,950
5/15/97       Prevent Dual Compensation

7R8G07067     Review of VA Use of Personal Identification Number                  10,100,000         *
5/16/97       Telephone Access Systems

7R1G10079     Advisory – Adequacy of Procedures Used to Transfer Life
5/16/97       Insurance Policy Data from VAROIC St. Paul, MN to
              VAROIC Philadelphia, PA

7R1G01096     Review of Means Testing and Income Verification                      3,276,498        3,276,498
6/10/97       Procedures

7R8A16098     Use of General Post Funds to Purchase Day Room Furniture,
7/15/97       VA Medical Center West Los Angeles, CA

7R1A02114     Review of Compensation and Pension Medical Examination
8/6/97        Services

7R5G07112     Evaluation of Efforts to Integrate Commercially-Developed
8/11/97       Software to Hospital Information Systems

7ANA14113     Review of Selected Aspects of the Compensated Work
8/13/97       Therapy Program, VA Medical Center West Los Angeles, CA

TOTAL:         72 Reports                                                  **$103,672,629      $37,542,010      $27,943,289


 * Management did not provide an alternative estimate.

** The difference between the OIG and Management estimates is $66,130,619. The difference is explained as follows:
Pending receipt of contracting officer’s decision - $54,230,619; Management did not provide an alternative estimate -
$10,100,000; Management estimate will be provided after completion of planned actions - $1,800,000.




                                                                                                                        A-7
                                                 APPENDIX B

                               DEPARTMENT OF VETERANS AFFAIRS
                                 OFFICE OF INSPECTOR GENERAL
                             CONTRACT REVIEWS BY OTHER AGENCIES

  Report
 Number/                                                                                  Questioned Unsupported
Issue Date                             Report Title                                          Costs         Costs
7PEN03113     Proposal, Project 532-112, New Ramps to Bldgs. 5 & 7, VAMC                        $15,323
4/23/97       Canandaigua, Strock Paving and Construction, Inc., Depew, NY

7PEN02001     Claim, Contract V101AC-0105, 180 Bed Psychiatric Bldg., VAMC Lyons,
4/25/97       Terminal Construction Corp., Wood-Ridge, NJ

6PEN03125     Proposal, RFP No. 574-66-96 Replace Tel. System, VAMC Grand Island,
4/29/97       Innovative Systems Incorporated, Kansas City, KS

7PEN03003     Proposal, RFP 614-51-96 Radiologists, VAMC Memphis, University of                    6,167     $541,483
5/2/97        Tennessee, Memphis, TN

7PEN03007     Proposal, RFP 648-60-95 Liver Transplant Serv., VAMC Portland, Oregon              24,798        10,705
5/2/97        Health Sciences University, Portland, OR

7PEN03111     Proposal, Solicitation 640-87-96 Fire Sprinkler System, VAMC Palo, Alto A
5/2/97        & D Fire Protection, Inc., Santee, CA

7PEN03002     Proposal, RFP 614-41-96 Anesthesiologists, VAMC Memphis, University of                          906,586
5/5/97        Tennessee, Memphis, TN

6PEN02001     Claim, Project No. 690-035 Construction Addition, VAMC Brockton, Saturn           724,755
5/19/97       Construction Co., Inc., Valhalla, NY

7PEN02303     Proposal, Project No. 549-085 Clinical Addition, VAMC Dallas, Centex            14,804,392
5/20/97       Construction Company, Inc., Dallas, TX

7PEC99057     A-128, Fiscal Year Ended 9/30/93, Cemetery Grant Government Of Guam,
6/2/97        Agana, GU

7PEN03114     Claim, Contract V101DC-0048 Expand/Renovate Bldg-1, VAMC Salt Lake,              1,469,934
9/30/97       Interwest Construction, Salt Lake City, UT

TOTALS:       11 Reports                                                                     $17,045,369    $1,458,774

The Defense Contract Audit Agency (DCAA) completed 7 of the 11 reports issued, with Questioned Costs
totaling $17 million. This data is also reported in the DoD OIG's Semiannual Report to Congress.




                                                                                                                B-1
                                                       APPENDIX C

                EXTERNAL CONTRACT AUDIT REPORTS FOR WHICH A CONTRACTING
                      OFFICER DECISION HAD NOT BEEN MADE FOR OVER
                            6 MONTHS AS OF SEPTEMBER 30, 1997

                                                            Reason for Delay
                                     Questioned Unsupported and Planned Date
  Report Title, Number, and Issue Date Costs      Costs      for a Decision

  OFFICE OF ACQUISITION AND MATERIEL MANAGEMENT
Postaward FSS Contract No. V797P-3113J, Medical                                $ 1,333,917   Pending OIG action; resolution
Equipment, Audit 9/30/90-11/30/92, Invacare Corporation,                                     planned for next reporting
Elyria, OH; 2PE-E10-072; 10/1/93                                                             period.

Proposal, RFP 561-17-96; Radiology Service,                         174,822                  Negotiation not finalized;
VAMC East Orange, NJ, University of Medicine &                                               resolution planned for next
Dentistry, Newark, NJ; 7PE-N03-001; 2/11/97                                                  reporting period.

  OFFICE OF FACILITIES MANAGEMENT
Change Order, Contract No. V101BC-0026, 120-Bed                     856,257       32,664     Negotiation not finalized;
Nursing Home Care Unit, VAMC New Orleans,                                                    resolution planned for next
Broadmoor/Boh, A Joint Venture, New Orleans, LA; 2PE-                                        reporting period.
N02-104; 10/28/92

Change OR/FR 10 Contract No. V101BC0053 VAMC                        126,130                  Negotiation not finalized;
Atlanta, GA Caddell Construction, Masterclean, Incorporated,                                 resolution planned for next
Decatur, GA                                                                                  reporting period.
3PE-N02-111; 11/16/93

Claim, Contract No. V200C-003, Renovate Space, VAAC                  95,235                  Pending receipt of CORR
Austin, O'Neal Construction, Inc., Austin, TX; 4PE-D99-                                      documenting disposition of
035; 2/17/94                                                                                 questioned costs.

Claim, Contract No. V101BC0026, 120 Bed Nursing                     727,576                  Negotiations not finalized;
HCU/Parking, VAMC New Orleans Broadmoor/BOH,                                                 resolution planned for next
Metairie, LA; 4PE-N02-102; 8/9/94                                                            reporting period.

Claim, Contract No. V101BC0006, Clinical Addition/Fire &           1,142,352                 Negotiations not finalized;
Safety, VAMC Durham, Blount, Inc., Montgomery, AL;                                           resolution planned for next
4PE-N02-104; 10/05/94                                                                        reporting period.

Adjustment Claim, V101C-1606, Construction Services,           $     271,599                 Negotiations not finalized;
VAMC Albany, Bhandari Constructors, Inc., Syracuse, NY;                                      contractor is to submit additional
5PE-N02-007; 3/31/95                                                                         support documentation; no
                                                                                             planned resolution date
                                                                                             available.




                                                                                                                      C-1
                                                           Reason for Delay
                                    Questioned Unsupported and Planned Date
 Report Title, Number, and Issue Date Costs      Costs      for a Decision

 OFFICE OF FACILITIES MANAGEMENT
Claim, Contract No. V101C-1651, Environment                  7,370,861               In discussion on monetary
Improvements, VAMC North Chicago, Blount Inc., 4PE-                                  resolution; planned resolution
N02-202; 2/7/96                                                                      date not available.

Claim, Contract V101C-1532, Asbestos Removal, VAMC            875,708    $   1,898   Negotiation not finalized;
W. Roxbury, Saturn Construction Co. Inc., Valhalla, NY;                              resolution planned for next
5PE-N02-006; 2/23/96                                                                 reporting period.

Claim, Project No. 632-062, 120 Bed Nursing Home Care      $ 1,623,126               Negotiation not finalized;
Unit, VAMC Northport, J.F. O'Healy Construction                                      resolution planned for next
Corporation, Bayport, NY                                                             reporting period.
3PE-N02-001; 3/26/96

Claim, Project No. 642-034C, Clinical Addition/Parking        512,961                Pending receipt of CORR
Structure, VAMC Philadelphia Charles Shaid Company of                                documenting disposition of
Pennsylvania, Inc., Clarksboro, NJ; 5PE-N02-002; 8/26/96                             questioned costs.

Claim, Project No. 553-808, Replacement Hospital VAMC       11,952,726               Claim under review; no planned
Detroit, MI; Bateson/Dailey,                                                         resolution date available.
Dallas TX; 6PE-N02-204; 12/11/96

Claim, Contract No. V101C-1603,                              1,120,170               Negotiation not finalized;
Install Sprinklers, VAMC Boston,                                                     resolution planned for next
L. Addison & Associates, Inc., Wakefield, MA                                         reporting period.
6PE-N02-108; 12/19/96

Claim, Contract V101BC0036; Defect. Drawings, VAMC           3,363,356               Negotiation not finalized;
Palm Beach County, FL, Clark Construction Group, Inc.,                               resolution planned for next
Hollywood, FL                                                                        reporting period.
6PE-N02-106; 11/06/96

 OFFICE OF THE GENERAL COUNSEL
Claim, Contract No. V539C-591,                                131,932                Contract in litigation; resolution
Install Incinerator, VAMC Cincinnati,                                                planned for next reporting
R.E. Schweitzer Construction, Cincinnati, OH                                         period.
4PE-N03-113; 6/21/94

Claim, Equit A/J Contract No. V657C-1110, Install Energy       57,947                Contract in litigation; resolution
Management System, VAMC St. Louis, Landis & GYR                                      planned for next reporting
Powers, Inc., Maryland Heights, MD; 4PE-N03-117; 9/30/94                             period.




 C-2
                                                            Reason for Delay
                                     Questioned Unsupported and Planned Date
  Report Title, Number, and Issue Date Costs      Costs      for a Decision

  OFFICE OF THE GENERAL COUNSEL
Equitable Adjustment Claim Submitted by Valley Forge Flag       $   556,333   Claim in litigation; resolution
Company, Inc., Contract No. 797DA309553, Womelsdorf,                          expected during next reporting
PA                                                                            period.
6PE-E09-061; 7/24/96

Claim, Contract No. V657C-1103; Replace HVAC, VAMC                  90,437    Claim in litigation; resolution
St. Louis, Gross Mechanical Contractors, Inc., St. Louis, MO;                 planned for next reporting period.
6PE-N03-119; 10/24/96

  VETERANS HEALTH ADMINISTRATION
A-128, Fiscal Year Ended 6/30/95, State Home Construction           72,052    Negotiations not finalized;
Grant(s), Domiciliary & Nursing Home Care, Formula                            planned completion date could
Grants, State Approving Agency Contract, State of                             not be provided.
Wisconsin, Madison, WI; 6PE-G06-059; 7/24/96




                                                                                                       C-3
                                                APPENDIX D

                     REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL

The table below cross-references the reporting requirements prescribed by the Inspector General Act of 1978
(Public Law 95-452), as amended by the Inspector General Act Amendments of 1988 (Public Law 100-504), to
the specific pages where they are addressed.

 IG Act
References                                  Reporting Requirement                                     Page

Section 4 (a) (2)    Review of legislation and regulations                                             2-5

Section 5 (a) (1)    Significant problems, abuses, and deficiencies                                  1-1 to 1-31

Section 5 (a) (2)    Recommendations with respect to significant problems, abuses, and               1-1 to 1-31
                     deficiencies

Section 5 (a) (3)    Prior significant recommendations on which corrective action has not been         3-1
                     completed

Section 5 (a) (4)    Matters referred to prosecutive authorities and resulting prosecutions and         v
                     convictions

Section 5 (a) (5)    Summary of instances where information was refused                                2-8

Section 5 (a) (6)    List of audit reports by subject matter, showing dollar value of questioned     A-1 to B-1
                     costs and recommendations that funds be put to better use

Section 5 (a) (7)    Summary of each particularly significant report                                  i to iv

Section 5 (a) (8)    Statistical tables showing number of reports and dollar value of questioned     3-3 and 3-4
                     costs for unresolved, issued, and resolved reports

Section 5 (a) (9)    Statistical tables showing number of reports and dollar value of                3-5 and 3-6
                     recommendations that funds be put to better use for unresolved, issued, and
                     resolved reports

Section 5 (a) (10)   Summary of each audit report issued before this reporting period for which no   C-1 to C-3
                     management decision was made by end of reporting period

Section 5 (a) (11)   Significant revised management decisions                                         None

Section 5 (a) (12)   Significant management decisions with which the Inspector General is in          None
                     disagreement




                                                                                                                D-1
      Copies of this report are available to the public. Written requests should be sent to:

             Office of the Inspector General (53B)
             Department of Veterans Affairs
             810 Vermont Avenue, NW
             Washington, DC 20420


      The report is also available on our Web Site:

             http://www.va.gov/oig/53/semiann/reports.htm




D-2
